No.

Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI



i
QUESTION(S) PRESENTED
Petitioners’ class action complaint brought in
state court seeking relief under Missouri law for
respondents’ marketing of fake prescription pet food
products raised neither a substantial nor a disputed
federal question. In ruling nonetheless that federal courts
have subject-matter jurisdiction over this suit, did the
court of appeals introduce chaos into this Court’s coherent
jurisprudence about when federal question jurisdiction
will lie over state-law claims?

ii
STATEMENT OF RELATED CASES
None

iii
TABLE OF CONTENTS
Page
QUESTION(S) PRESENTED .............................................................. i
STATEMENT OF RELATED CASES ................................................. ii
TABLE OF AUTHORITIES ............................................................... iv
OPINIONS BELOW ............................................................................ 1
JURISDICTION .................................................................................. 2
RELEVANT PROVISIONS INVOLVED ............................................ 2
STATEMENT ..................................................................................... 7
REASONS FOR GRANTING THE PETITION .................................. 16
CONCLUSION .................................................................................. 30
APPENDIX
Circuit Court Opinion............................................................... 1a
District Court Decision ............................................................. 8a
Order Denying Rehearing ...................................................... 23a
Petition ...................................................................................... 24a

iv
TABLE OF AUTHORITIES
Page
CASES
ALDEN V. MAINE, 527 U.S. 706, 754 (1999) ............................. 30
AMERICAN WELL WORKS COMPANY V. LAYNE &
BOWLER COMPANY, 241 U.S. 257, 259 (1916) ..................... 21
CATERPILLAR, INC. V. WILLIAMS, 482 U.S. 386, 392
& N. 7 (1987) ...................................................................... 18, 21
EMPIRE HEALTHCHOICE ASSURANCE,, INC. V.
MCVEIGH, 547 U.S. 677, 699-700 (2006) ........................ 25, 27
ERIE RAILROAD CO. V. TOMPKINS, 304 U.S. 64, 7879 (1938) ................................................................................... 30
EXXON MOBIL CORP. V. ALLAPATTAH SERVS.,
INC., 545 U.S. 546, 552 (2005) ................................................ 23
FLYING PIGS, LLC V. RRAJ FRANCHISING, LLC,
757 F.3D 177, 182 (4TH CIR. 2014)......................................... 25
FRANCHISE TAX. BD. OF CAL. V. CONSTR.
LABORERS VACATION TRUST, 463 U.S. 1, 9-10
(1983)....................................................................... 18, 24, 25, 26
GRABLE & SONS METAL PRODS., INC. V. DARUE
ENG'G & MFG., 545 U.S. 308, 314 (2005) ..................... passim
GULLY V. FIRST NATIONAL BANK, 299 U.S. 109,
117 (1936) ................................................................................. 26
GUNN V. MINTON, 568 U.S. 251, 257 (2013) ............ 24, 25, 27, 28
HENDERSON EX REL. HENDERSON V. SHINSEKI,
562 U.S. 428, 434 (2011) .......................................................... 23
KOKKENEN V. GUARDIAN LIFE INS. CO., 511 U.S.
375, 377 (1994) ......................................................................... 23
MERRELL DOW PHARM. INC. V. THOMPSON, 478
U.S. 804 (1986) ............................................................... PASSIM
RIVET V. REGIONS BANK OF LA., 522 U.S. 470, 475
(1998)........................................................................................ 18
SHAMROCK OIL & GAS CORP. V. SHEETS, 313 U.S.
100, 108-109 (1941) .................................................................. 23
WYETH V. LEVINE, 555 U.S. 555, 574 (2009) .................... 24, 27

v
STATUTES
21 U.S.C. §§ 301 .................................................................... 12, 13
21 U.S.C. § 321(g)(1) .................................................................... 5
28 U.S.C. § 1254(1) ....................................................................... 2
28 U.S.C. § 1331 ..................................................................passim
28 U.S.C. § 1332 ............................................................................ 3
28 U.S.C. § 1332(c)(1) ........................................................... 11, 14
28 U.S.C. §§ 1441(a) ............................................................... 4, 23
28 U.S.C. §1446(a) ........................................................................ 4
28 U.S.C. § 1453(b) ................................................................. 5, 11
28 U.S.C. § 1453(c)(1) ................................................................. 14
28 U.S.C. § 2101(c) ....................................................................... 2
Mo. Rev. Stat. § 407.020.1 ..................................................... 6, 10
Mo. Rev. Stat.§ 416.031.1 ...................................................... 6, 10
Mo. Rev. Stat. § 416.031.2 ................................................ 6, 10,13

1
OPINIONS BELOW
The published Opinion of the United States
Court of Appeals for the Eighth Circuit in Anastasia
Wullschleger et al. v. Royal Canin U.S.A., Inc. et al.,
C.A. No. 19-2645, decided March 13, 2020, and reported
at 953 F.3d 519 (8th Cir. 2020), ruling that there was
federal subject matter jurisdiction to hear petitioners’
class action and vacating the decision of the federal
district court for the Western District of Missouri to
remand petitioners’ civil action to the Circuit Court of
Jackson County, Missouri, is set forth in the Appendix
hereto (App. 1-7).
The unpublished and unreported Order of the
federal district court for the Western District of
Missouri in Anastasia Wullschleger et al. v. Royal
Canin U.S.A., Inc. et al., Civil Action No. 19-00235-CVW-GAF, filed June 13, 2019, remanding petitioners’
class action back to the Circuit Court of Jackson
County, Missouri, is set forth in the Appendix hereto
(App. 8-22).
The unpublished Order of the United States
Court of Appeals for the Eighth Circuit in Anastasia
Wullschleger et al. v. Royal Canin U.S.A., Inc. et al.,
C.A. No. 19-2645, filed April 16, 2020, denying
petitioners’ timely filed petition for Panel rehearing or
for rehearing en banc, is set forth in the Appendix
hereto (App. 23).
Petitioners’ civil complaint alleging a putative
class action against respondents, filed in the Circuit
Court of Jackson County, Missouri, on February 8,
2019, is set forth in the Appendix hereto (App. 24-85).

2
JURISDICTION
The decision of the United States Court of
Appeals for the Eighth Circuit vacating the decision of
the federal district court for the Western District of
Missouri to remand petitioners’ civil action to the
Circuit Court of Jackson County, Missouri, was filed on
March 13, 2020; and its further Order denying
petitioners’ timely filed petition for Panel rehearing or
for rehearing en banc was filed and decided on April 16,
2020 (App. 1-7;23).
In addition, on March 19, 2020, in light of the
ongoing public health emergency associated with the
COVID-19 pandemic, this Court issued an Order
extending the deadline for the filing any petition for
writ of certiorari due on or after March 19, 2020, for 150
days from the date of the court of appeals’ order
denying a timely filed petition for rehearing.
This petition for writ of certiorari is filed within
the time allowed by this Court’s rules, 28 U.S.C. §
2101(c), and this Court’s Order of March 19, 2020.
The jurisdiction of this Court is invoked
pursuant to the provisions of 28 U.S.C. § 1254(1).
RELEVANT PROVISIONS INVOLVED
United States Constitution, Article III, § 2:
The judicial Power shall extend to all Cases, in
Law and Equity, arising under this Constitution,
the Laws of the United States, and Treaties

3
made, or which shall be made, under their
Authority....
28 U.S.C. § 1331 (Federal question jurisdiction):
The district courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United
States.
28 U.S.C. § 1332 (c)(1) & (d)(2) (diversity of
citizenship):
(c) For the purposes of this section and section
1441 of this title—
(1) a corporation shall be deemed to be a citizen
of every State and foreign state by which it has
been incorporated and of the State or foreign
state where it has its principal place of
business....
....
(d)
....
(2) The district courts shall have original
jurisdiction of any civil action in which the
matter in controversy exceeds the sum or value
of $5,000,000, exclusive of interest and costs, and
is a class action in which—
(A) any member of a class of plaintiffs is a citizen
of a State different from any defendant;
(B) any member of a class of plaintiffs is a foreign
state or a citizen or subject of a foreign state and
any defendant is a citizen of a State; or

4
(C) any member of a class of plaintiffs is a citizen
of a State and any defendant is a foreign state or
a citizen or subject of a foreign state.
28 U.S.C. §§ 1441(a) & (b) (Removal of civil
actions):
(a) Generally.—
Except as otherwise expressly provided by Act
of Congress, any civil action brought in a State
court of which the district courts of the United
States have original jurisdiction, may be
removed by the defendant or the defendants, to
the district court of the United States for the
district and division embracing the place where
such action is pending.
(b) Removal Based on Diversity of Citizenship.—
(1) In determining whether a civil action is
removable on the basis of the jurisdiction under
section 1332(a) of this title, the citizenship of
defendants sued under fictitious names shall be
disregarded.
(2) A civil action otherwise removable solely on
the basis of the jurisdiction under section 1332(a)
of this title may not be removed if any of the
parties in interest properly joined and served as
defendants is a citizen of the State in which such
action is brought.
28 U.S.C. §1446(a) (Procedure for removal of civil
actions):
(a) Generally.—

5
A defendant or defendants desiring to remove
any civil action from a State court shall file in the
district court of the United States for the district
and division within which such action is pending
a notice of removal signed pursuant to Rule 11 of
the Federal Rules of Civil Procedure and
containing a short and plain statement of the
grounds for removal, together with a copy of all
process, pleadings, and orders served upon such
defendant or defendants in such action.
28 U.S.C. § 1453(b) (removal of class actions):
(b) In General.—
A class action may be removed to a district court
of the United States in accordance with section
1446 (except that the 1-year limitation under
section 1446(c)(1) shall not apply), without
regard to whether any defendant is a citizen of
the State in which the action is brought, except
that such action may be removed by any
defendant without the consent of all defendants.
21 U.S.C. § 321(g)(1) (Federal Food Drug and
Cosmetic Act [FDCA]):
(g)
(1) The term “drug” means (A) articles
recognized in the official United States
Pharmacopoeia,[1]
official
Homoeopathic
Pharmacopoeia of the United States, or official
National Formulary, or any supplement to any of
them; and (B) articles intended for use in the
diagnosis, cure, mitigation, treatment, or
prevention of disease in man or other animals;

6
Missouri Revised Statutes § 407.020.1:
Unlawful practices, penalty--exceptions.
407.020. 1. The act, use or employment by any
person of any deception, fraud, false pretense,
false promise, misrepresentation, unfair practice
or the concealment, suppression, or omission of
any material fact in connection with the sale or
advertisement of any merchandise in trade or
commerce or the solicitation of any funds for any
charitable purpose, as defined in section 407.453,
in or from the state of Missouri, is declared to be
an unlawful practice....Any act, use or
employment declared unlawful by this
subsection violates this subsection whether
committed before, during or after the sale,
advertisement or solicitation.
Missouri Revised
416.031.2:

Statutes

§§

416.031.1

&

Restraint of trade prohibited.
416.031. 1. Every contract, combination or
conspiracy in restraint of trade or commerce in
this state is unlawful.
2. It is unlawful to monopolize, attempt to
monopolize, or conspire to monopolize trade or
commerce in this state.

7
STATEMENT
In June of 2015, petitioner Anastasia
Wullschleger (“petitioner” or “Wullschleger”) began
purchasing for her dog prescription pet food marketed
by respondent Royal Canin U.S.A., Inc. (“respondent”
or “Royal Canin”) at the recommendation of a
veterinarian in her local PetSmart store. She continued
to do so based upon the representations by both the
veterinarian and PetSmart personnel that she could not
buy this pet food without a prescription and a
completed MedCard from the veterinarian (App. 59-60).
In fact, Royal Canin’s prescription pet food contains no
drug, medicine or other ingredient that requires a
prescription or regulatory approval.
Having been told that she needed a prescription
to buy Royal Canin’s dog food, Wullschleger believed
that this product was intended to treat the specific
health problems of her dog; that it contained medicine
of some sort; that some kind of regulatory oversight
was associated with its manufacture; and that her
purchase of this prescription pet food was akin to her
purchase of prescription drugs from a pharmacy. She
also knew that this pet food was located in a section of
the PetSmart store separate from non-prescription pet
food; that this section contained an advisory to
customers that a prescription and a MedCard were
required for its purchase; and that it sold for a
significantly higher price than non-prescription pet food
(App. 59-62). Because of this prescription requirement,
Wullschleger paid more for Royal Canin’s prescription
dog food than she would have paid in the absence of
such a requirement (App. 62).

8
Beginning in 2009 and continuing until 2019,
petitioner Geraldine Brewer (“petitioner” or “Brewer”)
at the recommendation of her veterinarian purchased
for her cat prescription pet food marketed by
respondent
Nestle
Purina
Petcare
Company
(“respondent” or “Purina”). She continued to do so
based upon representations by both her veterinarian
and PetSmart personnel that she could not buy this
specialized food without a prescription and a completed
MedCard from the veterinarian. (App. 62-63). In fact,
Purina’s prescription cat food contains no drug,
medicine or other ingredient that requires a
prescription or regulatory approval.
Having been told that she needed a prescription
to buy Purina’s cat food, Brewer believed that this
product was intended to treat the specific health
problems of her cat; that it contained medicine of some
sort; that some kind of regulatory oversight was
associated with its manufacture; and that her purchase
of this prescription pet food was akin to her purchase of
prescription drugs from a pharmacy. She also knew that
this pet food was located in a section of the PetSmart
store separate from non-prescription pet food; that this
section contained an advisory to customers that a
prescription and a MedCard were required for its
purchase; and that it sold for a significantly higher price
than non-prescription pet food (App. 63-64). Because of
this prescription requirement, Brewer paid more for
Purina’s prescription cat food than she would have paid
without such a requirement (App. 64-65).
In both cases, Royal Canin and Purina
(“respondents”) marketed to petitioners their fake
prescription pet food products in order to cause

9
Wullschleger and Brewer to purchase these products at
a significantly higher price than non-prescription pet
food (App. 25-29). Respondents never submitted any of
their so-called “prescription” pet food products to the
U.S. Food and Drug Administration (“FDA”) for
review and approval, as required for any prescription
pet product, because, as respondents well knew, none of
their products possessed medicinal or drug properties
which would warrant oversight by the FDA (App. 26).
Yet respondents’ scheme misled petitioners as
consumers into believing they were purchasing an
actual prescription product, creating that experience by
requiring a veterinarian’s prescription for their
purchase (App. 27-28).
Like most reasonable consumers, petitioners
are less price sensitive when purchasing prescription
products as opposed to over-the-counter ones. In this
way, respondents’ marketing caused petitioners to
overpay for respondents’ fake prescription products,
depriving them of any meaningful consumer choice. In
the absence of this unlawful scheme, petitioners likely
would have purchased similar pet food but at a lower
price (App. 40-41). Thus when they purchased
respondents’ prescription pet products, they were
caused to pay an exorbitant, unwarranted price for
them, thereby injuring them and causing them
recoverable loss and damage (App. 43;64-65;76;78; 79) .
On February 8, 2019, petitioners brought this
putative class action against respondents in the Circuit
Court of Jackson County, Missouri, alleging the facts
already recited above (App. 3;9). Their state-court
“petition” identified both petitioners as citizens of
Missouri and they brought this suit not only on their

10
own behalf but also on behalf of all other similarly
situated Missouri citizens, i.e., those Missouri citizens to
whom respondents marketed their fake prescription
pet products scheme (App. 2; 9). As they claimed in the
first paragraph of their petition, respondents conspired
with other pet food manufacturers to “create[ ] and
enforce[ ] upon retailers and consumers the mandatory
use of a prescription, issued by a veterinarian, as a
condition precedent to the purchase of [their]...dog and
cat food” (App. 10).
Petitioners further alleged that respondents’
insistence on a veterinarian-issued prescription as a
condition precedent for the purchase of their pet food
misled reasonable consumers like them to believe that
this product had been tested and approved by the FDA,
was subject to government inspection and oversight,
and possessed medicinal and drug properties for which
consumers are willing to pay a premium (Id.). That
none of these things were true, petitioners claimed,
renders respondents’ prescription scheme fake,
misleading, and contrary to law (Id.).
Petitioners alleged in seven counts that
respondents violated the Missouri Merchandising
Practices Act (Mo. Rev. Stat. § 407.020.1) (“MMPA”),
which prohibits any “deception, fraud, false pretense,
false
promise,
misrepresentation,
[or]
unfair
practice...in connection with the sale or advertisement
of any merchandise in trade or commerce...”; the
Missouri Antitrust Law (Mo. Rev. Stat. §§ 416.031.1 &
416.031.2), which forbids any conspiracy to monopolize
trade or commerce; and the Missouri law of unjust
enrichment (App. 10-11).

11
After being served with the petition, Royal
Canin with Purina’s consent removed this case to the
federal district court for the Western District of
Missouri pursuant to 28 U.S.C. § 1453(b), resting their
removal on federal-question jurisdiction under 28
U.S.C. § 1331, and diversity of citizenship under 28
U.S.C. § 1332(c)(1) (App. 3;9;12). On April 24, 2019,
petitioners moved to remand the case back to the
Circuit Court of Jackson County (App. 3;8). On June 13,
2019, the district court, Fenner, J., issued an Order
granting petitioners’ motion to remand to state court
(App. 8-22).
The district judge noted that removal statutes
are strictly construed with all doubts about federal
jurisdiction resolved in favor of state jurisdiction over
the controversy (App. 11-12). As for federal-question
jurisdiction, the motion judge resorted to the wellpleaded complaint rule, i.e., that federal jurisdiction is
established only if a federal question is presented on
the face of a properly pleaded complaint (App. 12-13).
Applying this Court’s holding in Grable & Sons Metal
Prods., Inc. v. Darue Eng’g & Mfg., 545 U.S. 308, 314
(2005), the district judge examined the complaint to
determine if petitioners’ state-law claims necessarily
raised a substantial and actually disputed federal issue,
which a federal forum “may entertain without
disturbing any congressionally approved balance of
federal and state judicial responsibilities” (App. 13
quoting Grable, supra).
The district court could find no such substantial
federal issue on the face of petitioners’ complaint
(App.14-17). It read the allegations describing
respondents’ fake prescription requirement as

12
bottomed on petitioners’ claim that none of
respondents’ pet food contained a drug or medicine
warranting review or approval by the FDA; that
neither Missouri law nor federal law therefore requires
a prescription for such products; and that by
nonetheless imposing a prescription requirement on
their sale (at an exorbitant price), respondents have
misrepresented to consumers like them that these
products have been evaluated by the FDA as a drug or
medicine that can be sold by prescription only (App. 1315).
As Judge Fenner concluded, none of these
allegations implicates the Federal Food, Drug and
Cosmetics Act (21 U.S.C. §§ 301 et seq.) (“FDCA”),
requires an interpretation of FDA regulations or
invokes even FDA’s Compliance Policy Guide (“CPG”)
(App. 13-14 ). Petitioners alleged instead a
straightforward violation of state law, i.e., the MMPA,
which prohibits any “deception, fraud, false pretense,
false
promise,
misrepresentation,
[or]
unfair
practice...in connection with the sale or advertisement
of any merchandise in trade or commerce...” (App. 1415). That is, petitioners’ “theory----that these
representations by respondents deceive consumers into
believing th[eir] products comply with FDA
regulations, amounts to an unlawful act in violation of
the MMPA----requires only interpretations of the
MMPA and not the FDCA or CPG” (App. 15).
Even if respondents, as alleged, failed to submit
their pet food products to the FDA for its approval and
thereby violated the FDCA as well as the CPG when
they thereafter sold these pet products by prescription
only, petitioners’ theory of liability “does not depend on

13
an interpretation of federal law, but rather whether
these actions resulted in unlawful practice that violated
the MMPA” (Id.).
As for petitioners’ state antitrust claims under
Mo. Rev. Stat. § 416.031.2, the district judge ruled that
they “do not ask a court to determine if [respondents]
violated the FDCA or the CPG but rather ask a court
to determine if [respondents] did, in fact, agree to
impose a prescription requirement on their products
despite not submitting them to the FDA for analysis
and approval” (App. 16) (emphasis supplied). This
theory of liability requires petitioners
to prove that, through these actions,
[respondents] engaged in monopolistic behavior,
attempted to monopolize, or conspired to
monopolize the prescription pet food market. As
such, [petitioners’] antitrust claims do not
depend on an interpretation of federal law for
their resolution.
(Id.).
Finally, the district court determined that under
Missouri’s unjust enrichment law, all a judge or jury
would evaluate is the monetary benefit reaped by
respondents’ as the result of their conduct in charging a
premium price for their fake prescription pet food in
the absence of approval by the FDA, not whether these
actions violated the FDCA or the CPG themselves
(App. 16-17 ). In short, it concluded that all of
respondents’ actions alleged by petitioners in their
complaint can be evaluated by reference to state law

14
only and these state-law claims therefore did not
implicate significant federal issues (App. 17).
Addressing federal jurisdiction based on
diversity of citizenship, Judge Fenner ruled that
respondents had not met their burden under the Class
Action Fairness Act, 28 U.S.C. § 1332(c)(1) (“CAFA”)
(App. 17-21). Both Royal Canin and Purina are citizens
of Missouri, as are petitioners, and there is no minimal
diversity (Id.). Moreover, Royal Canin could not rely on
its dual citizenship to create this minimal diversity
(Id.). Because it lacked both subject-matter and
diversity jurisdiction, the district court ordered the
case be remanded to the Circuit Court of Jackson
County, Missouri, for further proceedings (App. 21).
The court of appeals granted respondents’
petition for appellate review under 28 U.S.C. §
1453(c)(1), limiting its examination to the issue of
federal question jurisdiction (App. 3). On March 13,
2020, the Panel, speaking through Erickson, J., vacated
the district judge’s order and remanded the case to the
federal district court (App. 1-7). According to the court
of appeals, petitioners “rel[ied] explicitly on federal law
throughout their pleadings,” alleging that respondents’
“conduct amounted to a joint and coordinated violation
of the...FDCA and the FDA’s regulatory guidance in
the...CPG” (App. 3;4).
First, following Merrell Dow Pharm. Inc. v.
Thompson, 478 U.S. 804 (1986), which forecloses
removal of state-law claims that merely include a
violation of federal law as an element of the offense, the
Panel ruled that petitioners’ claim under the MMPA
might not depend on federal law if respondents’ failure

15
to submit its prescription pet food to the FDA for
approval could be sufficient to prove deception under
the MMPA (App. 4-5).
Second, however, it concluded that petitioners
“elected to premise” their antitrust and unjust
enrichment claims against respondents “on violations
and interpretations of federal law;” and their
“dependence on federal law permeates the allegations
such that [these two claims] cannot be adjudicated
without reliance on and explication of federal law”
(App. 5-6). Thus it ruled that petitioners’ complaint
gives rise to federal question jurisdiction and their
“isolated focus on their alleged state law claims is
nothing more than an apparent veil to avoid federal
jurisdiction” (App. 6). Moreover, it determined that
petitioners’ prayers for injunctive and declaratory
relief in their complaint invoke federal jurisdiction
because they necessarily require interpretation and
application of federal law (Id.).
On April 16, 2020, the court of appeals denied
petitioners’ timely filed petition for Panel rehearing or
for rehearing en banc (App. 23).

16
REASONS FOR GRANTING THE PETITION
By Ruling That Petitioners’ Class Action Seeking
To Hold Respondents Liable Under Missouri Law
For Their Marketing Of Fake Prescription Pet
Food Must Be Brought In Federal Court Instead Of
Missouri Courts, The Court Of Appeals Has
Introduced Chaos Into This Court’s Coherent
Jurisprudence About When Federal Question
Jurisdiction Will Lie Over State-Law Claims.
None of petitioners’ allegations about
respondents’ fake prescription pet food scheme
implicates the FDCA, requires an interpretation of the
FDA’s regulations, or even invokes the FDA’s
Compliance Policy Guide so as to create a substantial or
even disputed federal issue for resolution. Instead,
petitioners’ theories of liability are straightforward, i.e.,
that respondents violated the MMPA by deceiving
consumers that their pet products complied with FDA
regulations when they admittedly didn’t; they violated
Missouri antitrust law by agreeing among themselves
and with others to use a prescription requirement on
their pet products admittedly without seeking FDA
approval; and in pursuing this scheme, they reaped a
monetary benefit that can be measured and awarded
under Missouri’s unjust enrichment law.
While petitioners’ theories of liability may
require an interpretation of the MMPA, Missouri
antitrust law, or Missouri’s law of unjust enrichment to
succeed, none requires as elements of its success the
interpretation or violation of any federal law. That
respondents admittedly failed to seek FDA approval of
their fake prescription pet food is not an element of any

17
of petitioners’ causes of action under Missouri law but
merely an antecedent circumstance that led to
respondents’ later deceptive and monopolistic conduct
under state law when they nonetheless marketed their
products as having obtained that approval. Neither the
FDCA nor the FDA has any causative nexus with
respondents’ actionable conduct under Missouri law;
and nothing in petitioners’ proof would call into
question the interpretation or enforcement of this
federal law.
Because none of these claims implicates
substantial or disputed federal law, the court of appeals
decision to the contrary upends the careful and
coherent jurisprudence this Court has developed over
the years in order to determine when federal question
jurisdiction will lie over state-law claims. The issue of
whether federal subject matter jurisdiction exists to
hear state suits such as this one challenging the
marketing of fake prescription pet products has
important, recurring nationwide consequences. This
Court should grant certiorari to decide this important
issue of federal question jurisdiction, reaffirm its
coherent jurisprudence about when federal jurisdiction
will lie over state-law claims such as this, and then
apply that jurisprudence to conclude petitioners’ class
action against respondents should be remanded to the
Missouri state courts for further proceedings.
The analysis of whether petitioners’ claims
belong in state or federal court begins with this Court’s
“well-pleaded complaint” rule that “as a practical
matter, severely limits the number of cases in which
state law ‘creates the cause of action’ that may be
initiated in or removed to federal district court....”

18
Franchise Tax. Bd. of Cal. v. Constr. Laborers Vacation
Trust, 463 U.S. 1, 9-10 (1983). It provides that federal
question jurisdiction under 28 U.S.C. § 1331 exists only
when such a question is presented on the face of the
plaintiff’s properly pleaded complaint. Rivet v. Regions
Bank of La., 522 U.S. 470, 475 (1998) (citation omitted).
The rule “makes the plaintiff[s] the master of [their]
claim” because in drafting the complaint, they may
“avoid federal jurisdiction by exclusive reliance on state
law.” Caterpillar, Inc. v. Williams, 482 U.S. 386, 392 &
n. 7 (1987). See also Merrell Dow Pharm. Inc. v.
Thompson, 478 U.S. 804, 809 n. 6 (1986) (“Jurisdiction
may not be sustained on a theory that the plaintiff has
not advanced.”) (emphasis supplied).
In their state court complaint, petitioners
alleged that respondents marketed their fake
prescription pet food so that consumers like them
would pay significantly more than they would for nonprescription pet food. As part of their scheme, it was
alleged that respondents knew that a prescription
requirement fostered a reasonable belief by consumers
that such products were intended to treat specific
health problems of pets; that they contained medicine of
some kind; that some sort of regulatory oversight by,
for example, the FDA was involved; and that their
purchase was akin to the purchase of prescription drugs
from a pharmacy. Thus by requiring a veterinarian’s
prescription to buy this pet food, it was alleged that
respondents misled petitioners into believing they were
purchasing an actual prescription product when, in fact,
they were not.
As petitioners alleged, respondents never
submitted any of their so-called “prescription” pet food

19
products to the FDA for approval, as required for any
prescription pet product, because, as respondents
admit, none of their products possess medicinal or drug
properties that would trigger oversight by the FDA in
the first place. Yet they imposed this fake requirement
of a prescription on their products to create the
misleading impression for consumers that these
products are subject to FDA oversight thereby
justifying their significantly enhanced price. By
pursuing this fake prescription scheme, petitioners
alleged, respondents violated the MMPA, Missouri’s
consumer protection law, which proscribes any
deceptive or unfair trade practices in the sale of
merchandise like pet food. That a part of respondents’
scheme involved their admittedly false insinuation that
the FDA had approved these products does not require
any interpretation of FDA regulations or invoke even
the FDA’s CPG.
Second, petitioners alleged that respondents
conspired with other pet food manufacturers to “create[
] and enforce[ ] upon retailers and consumers the
mandatory use of a prescription, issued by a
veterinarian, as a condition precedent to the purchase
of [their]...dog and cat food”; and that this conduct
violated Missouri Antitrust Law, which prohibits pricefixing and conspiracies to monopolize trade or
commerce. Moreover, in this part of their complaint,
petitioners anticipated that respondents would
affirmatively defend against these allegations of
conspiracy and price-fixing by claiming that the FDA
and its CPG required each of them independently to
impose a prescription for their product, giving each one
of them an independent reason to employ this scheme,
making their actions inconsistent with the kind of

20
collusive, concerted conduct that would support a
violation of Missouri antitrust law.
Anticipating
this
affirmative
defense,
petitioners alleged in paragraphs 55-74 of their
complaint that the 2012 version of the FDA’s CPG
determined that manufacturers of prescription pet food
that had not been approved by the FDA were selling
unsafe, adulterated and misbranded products in
violation of the FDCA; and that despite this warning,
respondents nonetheless agreed among themselves to
continue to use the prescription requirement to market
their pet food to consumers, violating the FDCA and
CPG in the process, and engaging in the kind of
collusive, concerted conduct which would support a
violation of Missouri antitrust law (App. 46-59).
Notably, the court of appeals relied upon these
precise paragraphs in petitioners’ complaint to conclude
that petitioners “elected to premise” their antitrust and
unjust enrichment claims against respondents “on
violations and interpretations of federal law”; and their
“dependence on federal law permeates the allegations
such that [these two claims] cannot be adjudicated
without reliance on and explication of federal law”
(App. 5-6). But all of these allegations about
respondents’ “joint and coordinated violation of
the...FDCA and the FDA’s regulatory guidance in
the...CPG” were made in anticipation of respondents’
affirmative defense of non-coordination and lack of
agreement.
This Court has held that such allegations
anticipating an affirmative defense based on federal law
in a state-court complaint asserting purely state-law

21
claims cannot create federal question jurisdiction under
28 U.S.C. § 1331. Caterpillar, Inc. v. Williams, 482 U.S.
at 393. As the Court wrote,
the presence of a federal question...in a defensive
argument does not overcome the paramount
policies embodied in the well-pleaded complaint
rule that the plaintiff is the master of the
complaint, that a federal question must appear
on the face of the complaint, and that the
plaintiff may, by eschewing claims based on
federal law, choose to have the cause heard in
state court....[A] defendant cannot, merely by
injecting a federal question into an action that
asserts what is plainly a state-law claim,
transform the action into one arising under
federal law, thereby selecting the forum in which
the claim shall be litigated. If a defendant could
do so, the plaintiff would be master of nothing.
Id. at 398-399 (emphasis in original) (footnote omitted).
See American Well Works Company v. Layne &
Bowler Company, 241 U.S. 257, 259 (1916) (Holmes, J.)
(state court complaint alleging libel and slander
concerning plaintiff’s patented pump did not federalize
the action; whether patent infringement occurred is “no
part of the plaintiff’s case”; order denying remand back
to state court reversed).
Finally, relying upon Missouri’s equitable law of
unjust enrichment and the remedies it provides
consumers, petitioners alleged that respondents’
scheme caused them to purchase prescription pet
products at an exorbitant price, thereby injuring them
and causing recoverable loss and damage in an amount

22
to be determined by a jury. None of these allegations on
their face invokes an interpretation of or an
enforcement of any federal law.
Thus when the well-pleaded complaint rule is
properly applied to petitioners’ state-court complaint,
its allegations assert purely state-law claims based
upon Missouri’s consumer protection laws, its antitrust
law, and the equitable remedies the decisional law of
Missouri provides litigants in cases of unjust
enrichment. That respondents admittedly failed to seek
FDA approval of their fake prescription pet food before
marketing it to consumers is not an element of any of
petitioners’ causes of action but merely a circumstance
that led to respondents’ later deceptive and
monopolistic conduct under state law when they
nonetheless agreed to market their products without
having obtained that approval.
To the extent that its allegations are
“permeated” with references to the FDCA, the FDA,
or the FDA’s CPG, as the court of appeals observed,
those references were made in anticipation of
respondents’ affirmative defense of non-coordination
and lack of conspiracy, and under Caterpillar these
allegations cannot themselves be the basis of federal
question jurisdiction under 28 U.S.C. § 1331. This
fundamental misreading of petitioners’ complaint by
the court of appeals in order to find federal question
jurisdiction where there was none in the first place
constitutes a clear disregard of this Court’s holding in
Caterpillar and, for this reason alone, its ruling is error.
The court of appeals’ reasoning also upends this
Court’s careful and coherent jurisprudence developed

23
over the years to determine when federal question
jurisdiction will lie over state-law claims. It begins with
the fundamental premise that federal district courts are
couts of limited jurisdiction and possess only the
“power authorized by Constitution and statute” and
“may not exercise jurisdiction absent a statutory basis
....” Exxon Mobil Corp. v. Allapattah Servs., Inc., 545
U.S. 546, 552 (2005) (citations omitted). A federal court
must presume that a case lies outside of its limited
jurisdiction unless and until jurisdiction is shown to be
proper. Henderson ex rel. Henderson v. Shinseki, 562
U.S. 428, 434 (2011). Kokkenen v. Guardian Life Ins.
Co., 511 U.S. 375, 377 (1994).
In keeping with this limited jurisdiction, when
removal from state court to federal court is sought,
federal courts should strictly construe removal statutes
such as 28 U.S.C. §§ 1441(a) & (b) with any doubts
about the propriety of removal resolved in favor of
state court jurisdiction and against removal to the
federal forum. Shamrock Oil & Gas Corp. v. Sheets, 313
U.S. 100, 108-109 (1941). A party seeking removal and
opposing remand bears the burden of establishing
federal subject matter jurisdiction by a preponderance
of the evidence because, as this Court has emphasized,
federal courts should be cautious in exercising
jurisdiction of this kind which lies at “the outer reaches
of § 1331.” Merrell Dow Pharm. Inc. v. Thompson, 478
U.S. at 810.
Indeed, the “mere presence of a federal issue in a
state cause of action” is not enough to confer
jurisdiction, id. at 813, because if it were, then
innumerable claims traditionally heard in state court
would be funneled to federal court instead, raising

24
“serious federal-state conflicts.” Franchise Tax. Bd. of
Cal. v. Constr. Laborers Vacation Trust., 463 U.S. at 10.
To avoid these conflicts and ensure that state-law
claims only rarely give rise to § 1331 jurisdiction, courts
must first consider whether “federal law creates a
cause of action” or (2) “the plaintiff’s right to relief
necessarily depends on a resolution of a substantial
question of federal law.” Franchise Tax. Bd. of Cal. v.
Constr. Laborers Vacation Trust, 463 U.S. at 27-28
(emphasis supplied). In fact, the “vast bulk of suits that
arise under federal law” assert a claim or claims created
by federal law. See Gunn v. Minton, 568 U.S. 251, 257
(2013) (citations omitted).
Addressing the first inquiry, the FDCA does not
create or imply a private cause of action for individuals
injured as a result of violations of the Act. Merrell Dow
Pharm. Inc. v. Thompson, 478 U.S. at 806-807;810;
Wyeth v. Levine, 555 U.S. 555, 574 (2009). This is an
“important clue” suggesting a congressionally approved
balance in federal-state relations that disfavors federal
involvement. Grable & Sons Metal Prods., Inc. v.
Darue Eng’g & Mfg., 545 U.S. 308, 318 (2005). In fact,
the absence of such a private right of action for
violations of the FDCA “is tantamount to a
congressional conclusion that the presence of a claimed
violation of the statute as an element of a state cause of
action is insufficiently ‘substantial’ to confer federal
question jurisdiction.” Merrell Dow Pharm. Inc. v.
Thompson, 478 U.S. at 814 (footnote omitted).
The second inquiry regarding substantiality
reflects the Court’s observation in Grable that
regardless of whether federal law creates a cause of
action, “in certain cases federal-question jurisdiction

25
will lie over state-law claims that implicate significant
federal issues.” 545 U.S. at 312; 314. Under the test laid
out in both Grable, supra, and Gunn v. Minton, 568
U.S. at 258, a state-created claim may arise under
federal law for purposes of § 1331 “if a federal issue is:
(1) necessarily raised; (2) actually disputed; (3)
substantial; and (4) capable of resolution in federal
court without disrupting the federal-state balance
approved by Congress.” Id. In this “special and small
category” of cases that present a “nearly ‘pure question
of law,’ one that could be settled once and for all and
thereafter would govern numerous...cases,” federalquestion jurisdiction under § 1331 is established and
removal from state court to federal court would be
proper. Id. See Empire Healthchoice Assurance, Inc. v.
McVeigh, 547 U.S. 677, 699-700 (2006).
Petitioners’ state-court complaint against
respondents must have satisfied all four of these
markers for finding federal-question jurisdiction under
§ 1331 and, in fact, it satisfied none of them. First, “a
federal question is ‘necessarily raised’ for purposes of §
1331 only if it is a ‘necessary element of one of the wellpleaded state claims.’” Franchise Tax. Bd. of Cal. v.
Constr. Laborers Vacation Trust., 463 U.S. at 13. It is
not enough that—as here—“federal law becomes
relevant only by way of a defense to an obligation
created entirely by state law.” Id. Instead, a plaintiff’s
right to relief for a given claim necessarily depends on a
question of federal law only when every legal theory
supporting the claim requires the resolution of a federal
issue. Flying Pigs, LLC v. RRAJ Franchising, LLC,
757 F.3d 177, 182 (4th Cir. 2014). Here petitioners can
clearly prevail on their state antitrust and unjust
enrichment claims without evidence regarding the

26
FDCA or FDA. All they need show is deceit as part of a
combination or agreement to enhance prices of
respondents’ prescription pet food. This requires no
resolution of a federal issue.
Here petitioners’ theories of liability may
require an interpretation of the MMPA, Missouri
antitrust law, or Missouri’s law of unjust enrichment to
succeed; but none requires as elements of its success
the interpretation or violation of any federal law.
Neither the FDCA nor the FDA has any causative
nexus with respondents’ actionable conduct under
Missouri law; and nothing in petitioners’ proof would
call into question the interpretation or enforcement of
this federal law. At most, the question of federal law
here is only “lurking in the background” and so far
removed from plain necessity as to be “unavailing to
extinguish the jurisdiction of the state[].” Franchise
Tax. Bd. of Cal. v. Constr. Laborers Vacation Trust., 463
U.S. at 11-12 quoting Gully v. First National Bank, 299
U.S. 109, 117 (1936) (Cardoza, J.).
Second,
respondents
concede
in
their
submissions incident to opposing removal back to state
court that they never obtained FDA approval for their
fake prescription pet products before marketing them
to consumers. This arguably is the only federal issue in
this controversy and it is not disputed.
Third, the asserted federal issue here is not
substantial. Congress did not provide for any private
right of action for violations of the FDCA, and it can
therefore reasonably be inferred that it did not intend
to displace the “widely available state rights of action
[that] provided appropriate relief for injured

27
consumers” in the absence of any such federal right of
action.” Wyeth v. Levine, 555 U.S. at 574. In light of
Congress’ election to permit state-law rights of action
to remain in place, there can be no cognizable “serious
federal interest” in claiming the advantages thought to
be inherent in a federal forum. Id.
Moreover, an issue of federal law is substantial
when it is important to the federal system as a whole,
not merely when it is “significant to the particular
parties in the immediate suit.” Gunn v. Minton, 568
U.S. at 260. Grable & Sons Metal Prods., Inc. v. Darue
Eng’g & Mfg., 545 U.S. at 314-315. A substantial federal
issue is more likely to be present if a “pure issue of
[federal] law” is dispositive of this case and “numerous
other
cases”;
“fact-bound
and
situationspecific”disputes typically do not implicate substantial
federal issues. Empire Healthchoice Assurance,, Inc. v.
McVeigh, 547 U.S. at 700-701.
Here the federal issue petitioners describe in
their complaint, i.e., respondents’ admitted failure to
obtain FDA approval of their fake prescription pet
food, is unaccompanied by any private right of action to
enforce provisions of the FDCA; there is no indication
that respondents’ violating this regulation is important
to the federal system as a whole; it is not a pure issue of
law that is dispositive of this case or other cases; and
while regulatory compliance is a federal interest in the
abstract, that alone is not enough to classify a federal
issue as substantial. See Gunn v. Minton, 568 U.S. at
259-260.
Most important, even if respondents failed to
submit their pet food products to the FDA for approval

28
and thereby violated the FDCA as well as the CPG
when they thereafter sold these pet products by
prescription only, petitioners’ theory of liability does
not depend on an interpretation of federal law, but
rather whether these actions resulted in an unlawful
practice that violated Missouri’s consumer protection
and antitrust law. The regulatory action petitioners
describe in their complaint provides just the backdrop
for their state-law claims, and the federal issue is
therefore not substantial in the relevant sense. Id. at
260.
Fourth, because of the insubstantiality of the
federal issue, permitting this case to go forward in state
court would not in any sense disrupt the balance
between state and federal courts. Id. at 263-264. Grable,
545 U.S. at 312-313;318-319. Merrell Dow Pharm. Inc.
v. Thompson, 478 U.S. at 811-812. States have a special
responsibility in enforcing their own consumer
protection and antitrust laws; there is no indication that
Congress, having made no provision for a federal cause
of action under the FDCA, intended to bar state courts
from hearing such cases simply because FDA oversight
has been tangentially raised; and to conclude otherwise
would federalize an entire category of cases that
Congress has not federalized, disturbing the balance
between federal and state judicial responsibilities.
In sum, then, the court of appeals:
A. failed to apply Caterpillar’s holding
that allegations anticipating an affirmative
defense based on federal law in a state-court
complaint asserting purely state-law claims

29
cannot create federal question jurisdiction under
28 U.S.C. § 1331;
B. failed to acknowledge that the FDCA
does not create or imply a private cause of action
for its enforcement and that this omission“is
tantamount to a congressional conclusion that
the presence of a claimed violation of the statute
as an element of a state cause of action is
insufficiently ‘substantial’ to confer federal
question jurisdiction.” Merrell Dow Pharm. Inc.
v. Thompson, 478 U.S. at 814; and
C. failed to apply any of the four
conjunctive requirements of the Grable-Gunn
test for determining whether federal-question
jurisdiction will lie over state-law claims that
implicate federal issues.
These serial failures by the court of appeals have
introduced chaos into this Court’s careful and coherent
jurisprudence to determine when federal question
jurisdiction will lie over state-law claims. This issue of
whether federal subject matter jurisdiction will lie to
hear state suits like this one challenging the marketing
of fake prescription pet products has important,
recurring nationwide consequences. This Court should
grant certiorari to decide this important issue of federal
question
jurisdiction,
reaffirm
its
coherent
jurisprudence about when federal jurisdiction will lie
over state-law claims, and then apply that
jurisprudence to conclude petitioners’ class action
against respondents should be remanded to the
Missouri state courts for further proceedings.
As the Court explained in Erie Railroad Co. v.
Tompkins, 304 U.S. 64, 78-79 (1938), the Constitution

30
recognizes and preserves the autonomy and
independence of the judicial departments of the States
and any interference with either “is an invasion of the
authority of the State and, to that extent, a denial of its
independence.” Id. See Alden v. Maine, 527 U.S. 706,
754 (1999) (our federal system bespeaks the fact that
the various States are sovereign entities whose judicial
independence must be respected by Article III courts).
As the district court rightly observed, the federal
courts are courts of limited jurisdiction. The decision
here by the court of appeals undermines that principle
to the detriment of the Missouri state courts.
CONCLUSION
For all of these reasons identified herein, this
Court should grant a writ of certiorari to review the
ruling of the United States Court of Appeals for the
Eighth Circuit and to vacate and reverse that ruling,
remanding the matter to the district court for the
Western District of Missouri with directions that this
case be further remanded to the Circuit Court of
Jackson County, Missouri; or provide petitioners with
such other relief as is fair and just in the circumstances
of this case.
Respectfully submitted,
Daniel R. Shulman
Counsel of Record
Shulman & Buske, PLLC
126 North Third Street
Suite 402
Minneapolis, MN 55401
(612) 870-7410

31
dan@shulmanbuske.com
James P. Frickleton
Bartimus, Frickleton
Robertson Rader, P.C.
11150 Overbrook Road
Suite 200
Leawood, KS 66211
(913) 266-2300
jimf@bflawfirm.com
Wade H. Tomlinson, III
Michael P. Morrill
Pope McGlamry, P.C.
3391 Peachtree Road NE
Suite 300
Atlanta, GA 30326
(404) 523-7706
efile@pmkm.com

1a
953 F.3d 519
United States Court of Appeals, Eighth Circuit.
Anastasia WULLSCHLEGER; Geraldine Brewer
Plaintiffs - Appellees
v.
ROYAL CANIN U.S.A., INC.; Nestle Purina PetCare
Company Defendants - Appellants
No. 19-2645
Submitted: January 16, 2020
Filed: March 13, 2020
Appeal from United States District Court for the
Western District of Missouri - Kansas City
Attorneys and Law Firms
James P. Frickleton, Bartimus & Frickleton,
Leawood, KS, Michael Patrick Morrill, Wade H.
Tomlinson, III, Pope & McGlamry, Columbus, GA,
Daniel Rees Shulman, Shulman & Buske, Minneapolis,
MN, for Plaintiff-Appellee.
Susanna R. Allen, Benjamin M. Greenblum, John
E. Schmidtlein, Williams & Connolly, Washington, DC,
Jason M. Hans, German & May, Kansas City, MO, for
Defendant-Appellant Royal Canin U.S.A., Inc.
Christopher M. Curran, Jerry Frank Hogue,
White & Case, Washington, DC, Michael S. Hargens,
Husch & Blackwell, Kansas City, MO, Bryan A.
Merryman, Catherine S. Simonsen, White & Case, Los
Angeles, CA, for Defendant-Appellant Nestle Purina
PetCare Company.

2a
Before LOKEN, BENTON, and ERICKSON, Circuit
Judges.
Opinion
ERICKSON, Circuit Judge.
Plaintiffs Anastasia Wullschleger and Geraldine
Brewer seek to represent a class of Missouri plaintiffs
who purchased prescription pet foods at premium
prices from Defendants Royal Canin U.S.A., Inc. and
Nestle Purina PetCare Company. Plaintiffs allege they
were deceived by defendants into believing the
products were approved by the United States Food and
Drug Administration (FDA). The district court entered
an order remanding the action back to state court,
finding it lacked subject matter jurisdiction. We
granted the defendants’ petition for review under 28
U.S.C. § 1453(c)(1), limiting review to the issue of
federal question jurisdiction. Because we conclude that
federal question jurisdiction exists, the district court’s
order is vacated and the case is remanded for further
proceedings consistent with this opinion.
I. Background
Defendants Royal Canin U.S.A., Inc. and Nestle
Purina PetCare Company manufacture prescription pet
foods that require the purchaser to consult with a
veterinarian and obtain a prescription before purchase.
According to the defendants, prescription pet foods are
therapeutic formulas for specific health issues, and they
may not be tolerated by all pets. However, the
defendants have not submitted these pet foods for

3a
evaluation by the FDA, and a prescription is not
required by law.
On February 8, 2019, plaintiffs filed this putative
class action in Jackson County, Missouri. Plaintiffs
alleged that defendants’ conduct amounted to a joint
and coordinated violation of the Food Drug and
Cosmetic Act (FDCA) and the FDA’s regulatory
guidance in the Compliance Policy Guide (CPG). The
complaint asserts only state law claims, including
violations of the Missouri Merchandising Practices Act
(MMPA), Missouri antitrust laws, and Missouri unjust
enrichment law. Plaintiffs’ prayer for relief includes
claims for money damages, and declaratory and
injunctive *521 relief requiring that defendants comply
with relevant state and federal laws.
Defendants removed the case to federal court,
asserting federal jurisdiction under 28 U.S.C. § 1332(d)
based on the diversity provisions of the Class Action
Fairness Act of 2005 and federal question jurisdiction
under 28 U.S.C. § 1331. The district court granted
plaintiffs’ motion to remand, finding no basis for federal
jurisdiction. Defendants appealed to our court for
review under 28 U.S.C. § 1453(c)(1). We accepted the
appeal solely to consider the issue of federal question
jurisdiction.
II. Discussion
We review a district court’s order of remand for
lack of subject matter jurisdiction de novo. Bell v.
Hershey Co., 557 F.3d 953, 956 (8th Cir. 2009). Federal
courts have original jurisdiction over all civil actions
“arising under” federal law. 28 U.S.C. § 1331. “[F]ederal
jurisdiction exists only when a federal question is
presented on the face of the plaintiff’s properly pleaded

4a
complaint. The rule makes the plaintiff the master of
the claim; he or she may avoid federal jurisdiction by
exclusive reliance on state law.” Caterpillar Inc. v.
Williams, 482 U.S. 386, 392, 107 S.Ct. 2425, 96 L.Ed.2d
318 (1987) (internal citations omitted).
In the case before us, plaintiffs rely explicitly on
federal
law
throughout
their
pleadings.
Notwithstanding their explicit reliance on federal law,
plaintiffs contend that remand is proper under the
Supreme Court’s decision in Merrell Dow Pharm. Inc.
v. Thompson, 478 U.S. 804, 106 S.Ct. 3229, 92 L.Ed.2d
650 (1986). The plaintiffs in Merrell Dow alleged claims
for negligence and fraud relating to the drug Bendectin,
and also alleged the drug was misbranded under the
FDCA. In affirming the remand order, the Supreme
Court emphasized Congress’s refusal to create a federal
private right of action for FDCA claims and highlighted
the Sixth Circuit’s explanation that federal question
jurisdiction exists “only if plaintiffs’ right to relief
depended necessarily on a substantial question of
federal law.” Id. at 807, 106 S.Ct. 3229 (quoting
Thompson v. Merrell Dow Pharm., Inc., 766 F.2d 1005,
1006 (6th Cir. 1985)) (emphasis in original). In other
words, “the presence of a claimed violation of [federal
law] as an element of a state cause of action” is
insufficient on its own to confer federal jurisdiction. Id.
at 814, 106 S.Ct. 3229.
Merrell Dow forecloses the removal of state law
claims that merely include a violation of federal law as
an element of the offense, without other reliance on
federal law. Resolution of the MMPA claims in this case
might not depend on federal law if the defendants’
failure to submit the prescription pet food for FDA
review arguably could be sufficient to prove deception
under the MMPA. See Mo. Ann. Stat. § 407.025.1; Sitzer

5a
v. Nat’l Ass’n of Realtors, Case No. 4:19-cv-0032-SRB,
2019 WL 5381984, at *7 (W.D. Mo. Oct. 16, 2019)
(reciting the elements of an MMPA claim). That said,
plaintiffs’ MMPA claims do not stand alone, and Merrell
Dow read as a whole did not “overturn[ ] decades of
precedent.” Grable & Sons Metal Prods., Inc. v. Darue
Eng’g & Mfg., 545 U.S. 308, 317, 125 S.Ct. 2363, 162
L.Ed.2d 257 (2005). When determining whether a case
“arises under” federal law, resolution depends on
whether a federal forum may entertain a state law
claim implicating a disputed and substantial federal
issue “without disturbing any congressionally approved
balance of federal and state judicial responsibilities.” Id.
at 314, 125 S.Ct. 2363.
The complaint in this case consists of more than
the MMPA claims. It included *522 allegations brought
under Missouri antitrust and unjust enrichment laws.
Plaintiffs elected to premise these non-MMPA claims
on violations and interpretations of federal law. The
complaint included no fewer than 20 paragraphs
recounting the defendants’ specific and coordinated
conduct that plaintiffs contend occurred during the five
years preceding the filing of the complaint. Compl. ¶¶
55–74. As evidence of coordination and conspiracy,
plaintiffs explicitly claim that defendants violated the
FDCA, were non-compliant with FDA guidance, and
that their refusal to submit the prescription pet food to
FDA review was improper. Id. According to the
plaintiffs’ complaint, when confronted with a choice to
continue non-compliance or submit to FDA review, the
defendants “decided jointly” to continue their
conspiracy and market the prescription pet food “in
violation of federal and state law.” Id. at ¶¶ 63, 73.
Plaintiffs’ dependence on federal law permeates the
allegations such that the antitrust and unjust

6a
enrichment claims cannot be adjudicated without
reliance on and explication of federal law.
Moreover, plaintiffs’ prayer for relief invokes
federal jurisdiction because it seeks injunctive and
declaratory relief that necessarily requires the
interpretation and application of federal law. After
alleging violations of the FDCA throughout the
complaint, plaintiffs request judgment: (1) “[f]inding,
adjudging, and decreeing” that defendants have
violated federal law; (2) enjoining defendants from
engaging in further violations of federal law; and (3)
estopping defendants from denying that prescription
pet food is a “drug” and “enjoining Defendants to
comply with all federal and Missouri provisions
applicable to the manufacture of such drugs. ...” Compl.
¶¶ 136–138; see also 21 U.S.C. § 321(g)(1) (FDCA
defining “drug”). The face of plaintiffs’ complaint gives
rise to federal question jurisdiction and plaintiffs’
isolated focus on their alleged state law claims is
nothing more than an apparent veil to avoid federal
jurisdiction.
Based on the allegations in the complaint and
relief sought, we find a federal issue surrounding the
state law claims is “(1) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of resolution in
federal court without disrupting the federal-state
balance approved by Congress.” Gunn v. Minton, 568
U.S. 251, 258, 133 S.Ct. 1059, 185 L.Ed.2d 72 (2013).
When all four of these requirements are met, federal
jurisdiction is proper. Id.
III. Conclusion

7a
The district court’s order of remand is vacated.
We remand the case to the district court for further
proceedings consistent with this opinion.
Footnotes
*Judge Grasz did not participate in the consideration or
decision of this matter.

8a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
ANASTASIA
WULLSCHLEGER and
GERALDINE
BREWER, on behalf of
themselves and all others
similarly situated,
Plaintiffs,
v.
ROYAL CANIN USA,
INC. and NESTLE
PURINA PETCARE
COMPANY,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 19-00235-CVW-GAF

ORDER
Now before the Court is Plaintiffs’ Anastasia
Wullschleger and Geraldine Brewer (collectively
“Plaintiffs”) Motion to Remand. (Doc. # 26). Defendants
Royal Canin USA, Inc. (“Royal Canin”) and Nestle
Purina PetCare Company (“Purina”) (collectively
‘Defendants”) oppose. (Doc. # 29). For the reasons
provided below, Plaintiffs’ Motion is GRANTED.1

1

Also before the Court is Royal Canin’s Motion to Join Mars

9a
DISCUSSION
I.

BACKGROUND

On February 8, 2019, Plaintiffs commenced this
action by filing a putative class-action petition
(“Petition”) in the Circuit Court of Jackson County,
Missouri, Case No. 1616-CV03690, against Purina and
Royal Canin. (Doc. # 1, ¶ 1). Plaintiffs served Purina
with a summons and copy of the Petition on February
25, 2019. (Doc. # 1, ¶ 2). Purina timely filed its notice of
removal on March 26, 2019. (Doc. # 1-2); see 28 U.S.C. §
1446(b) (requiring the filing of notice of removal within
30 days).2
Plaintiffs Wullschleger and Brewer are both
citizens of Missouri. (Petition, beginning on p. 5 of Doc.
# 1-1, ¶¶ 9-10). Additionally, the proposed classes are all
defined to contain “Missouri citizens.” (Id. at ¶¶ 90-92).
Royal Canin is a Delaware Corporation with its
principal place of business in Missouri. (Id. at ¶ 11).

Petcare as a Required Party (Doc. # 23), and Purina’s Motion to
Join the Joinder Motion. (Doc. # 27). Additionally, the parties filed
a Joint Motion for Extension of Time for Rule 26(f) Conference and
to File a Discovery Plan/Proposed Scheduling Order. (Doc. # 25).
Because the Court finds itself without jurisdiction for the reasons
provided below, it cannot rule on these Motions.
2
Under 28 U.S.C. § 1453(b), a class action “may be removed by any
defendant without the consent of all defendants.” As such, Royal
Canin properly removed the case without needing the consent of
Purina. Purina’s counsel has signed the brief filed in opposition to
remand submitted to this Court along with Royal Canin’s counsel.
(See Doc. # 29). As such, the Court finds that Purina did consent to
removal and seeks federal jurisdiction over this case.

10a
Purina is a Missouri corporation with its principal place
of business in Missouri. (Id. at ¶ 12).
The Petition alleges that Defendants conspired
with other pet food manufacturers to create and enforce
upon retailers and consumers the mandatory use of a
prescription, issued by a veterinarian, as a condition
precedent to the purchase of certain dog and cat food.
(Id. at ¶ 1). The Petition alleges that no federal, state,
or local law requires a prescription for the sale of
prescription pet food and that the products contain no
drug or other ingredient that requires the United
States Food and Drug Administration’s (“FDA”)
approval or prescription. (Id. at ¶ 2). The Petition
further alleges that this self-created requirement for a
veterinarian-issued
prescription
to
purchase
prescription pet food misleads reasonable consumers to
believe that such food has been tested and approved by
the FDA, has been subject to government inspection
and oversight, and has medicinal and drug properties
for which consumers are willing to pay a premium. (Id.
at ¶ 1). The Petition alleges that Defendants, along with
other pet-food manufacturers, have further conspired
with pet- food retailers and veterinary clinics to
communicate the false and misleading message to
consumers “through a widespread, sophisticated, and
coordinated scheme, premised on the requirement for a
prescription written by a veterinarian for the purchase
of Prescription Pet Food.” (Id. at ¶ 3).
The Petition brings six class-action claims
against Defendants. (Id. at ¶¶ 101-134). Count I is a
claim for a violation of Missouri Antitrust Law §

11a
416.031.1 against Defendants. (Id. ¶¶ 101- 106). Count
II is brought against Defendants for violation of
Missouri Antitrust Law § 416.031.2. (Id. at ¶¶ 107-112).
Count III is brought by Wullschleger against Royal
Canin alleging a violation of the Missouri
Merchandising Practices Act (“MMPA”) § 407.020, et
seq. (Id. at ¶¶ 113-118). Count IV is brought by Brewer
against Purina for violations of the MMPA. (Id. at ¶¶
119-124). Count V and Count VI are both claims of
unjust enrichment brought against Royal Canin and
Purina by Wullschleger and Brewer, respectively. (Id.
at ¶¶ 125-129, 130-134).
II.

LEGAL STANDARD

Federal courts are courts of limited jurisdiction.
Ark. Blue Cross & Blue Shield v. Little Rock
Cardiology Clinic, P.A., 551 F.3d 812, 816 (8th Cir.
2009). A federal district court may exercise removal
jurisdiction only where the court would have had
original jurisdiction had the action initially been filed
there. Krispin v. May Dep’t Stores Co., 218 F.3d 919,
922 (8th Cir. 2000) (citing 28 U.S.C. § 1441(b)). “The
basic statutory grants of federal-court subject-matter
jurisdiction are contained in 28 U.S.C. §§ 1331 [federalquestion jurisdiction] and 1332 [diversity jurisdiction].”
Arbaugh v. Y&H Corp., 546 U.S. 500, 513 (2006).
Removal statutes are strictly construed, and any
doubts about the correctness of removal are resolved in
favor of state court jurisdiction. See Shamrock Oil &
Gas Corp. v. Sheets, 313 U.S. 100, 108-09 (1941); In re

12a
Bus. Men’s Assurance Co. of Am., 992 F.2d 181, 183
(8th Cir. 1993). A party seeking removal and opposing
remand carries the burden of establishing federal
subject- matter jurisdiction by a preponderance of the
evidence. In re Prempro Prods. Liab. Litig., 591 F.3d
613, 620 (8th Cir. 2010). A court must resolve all doubts
about federal jurisdiction in favor of remand to state
court. Id.
III.

ANALYSIS

Defendants sought removal to this Court first on the
basis that this Court has federal-question jurisdiction
pursuant to 28 U.S.C. § 1331. (Doc. # 1, pp. 3-6).
Defendants also removed the case claiming this Court
has diversity jurisdiction to hear the case pursuant to
the Class Action Fairness Act (“CAFA”), codified at 28
U.S.C. § 1332(c)(1). (Id. at pp. 6-11). The Court will
address each of these assertions in turn.
A.
28 U.S.C.
Jurisdiction

§

1331:

Federal

Question

“Removal based on federal question jurisdiction
is governed by the well pleaded complaint rule:
jurisdiction is established only if a federal question is
presented on the face of the plaintiff’s properly pleaded
complaint.” Pet Quarters, Inc. v. Depository Tr. &
Clearing Corp., 559 F.3d 772, 779 (8th Cir. 2009). A
plaintiff “‘may avoid federal jurisdiction by exclusive

13a
reliance on state law.’” Cent. Iowa Power v. Midwest
Indep. Transmission Sys. Operator, Inc., 561 F.3d 904,
912 (8th Cir. 2009) (quoting Caterpillar Inc. v.
Williams, 482 U.S. 386, 392 (1987)). “Defendants may
not ‘inject a federal question into an otherwise statelaw claim and thereby transform the action into one
arising under federal law.’” Baker v. Martin Marietta
Materials, Inc., 745 F.3d 919, 924 (8th Cir. 2014)
(quoting Gore v. Trans World Airlines, 210 F.3d 944,
948 (8th Cir. 2000)).
“[I]n certain cases federal-question jurisdiction
will lie over state-law claims that implicate significant
federal issues.” Grable & Sons Metal Prods., Inc. v.
Darue Eng’g & Mfg., 545 U.S. 308, 312 (2005). “There is
no single, precise, all-embracing test for jurisdiction
over federal issues embedded in state-law claims
between nondiverse parties.” Cent. Iowa Power, 561
F.3d at 912 (quotations omitted). “Instead, the question
is, does a state-law claim necessarily raise a stated
federal issue, actually disputed and substantial, which a
federal forum may entertain without disturbing any
congressionally approved balance of federal and state
judicial responsibilities.” Grable & Sons, 545 U.S. at
314.
Defendants
assert
that
federal-question
jurisdiction exists in this case because the resolution of
Plaintiffs’ claims implicate the Federal Food Drug and
Cosmetics Act (“FDCA”) and the FDA’s Compliance
Policy Guide (“CPG”). (Doc. # 29, pp. 8-11). Plaintiffs
assert that their claims are not dependent on the
interpretation of federal regulatory schemes but are

14a
constructed solely on the interpretation of Missouri
law. The Court agrees with Plaintiffs.
First, “[t]he MMPA prohibits ‘deception, fraud,
false pretense, false promise, misrepresentation, unfair
practice or the concealment, suppression, or omission of
any material fact in connection with the sale or
advertisement of any merchandise in trade or
commerce’ by defining such activity as an unlawful
practice.” Hope v. Nissan N. Am., Inc., 353 S.W.3d 68,
81 (Mo. Ct. App. 2011) (quoting Mo. Rev. Stat. §
407.020.1). Actual damages may be recovered by “[a]ny
person who purchases ... merchandise primarily for
personal, family or household purposes and thereby
suffers an ascertainable loss of money or property ... as
a result of [an unlawful practice.]” Mo. Rev. Stat. §
407.025.1.
Here, Plaintiffs allege that Defendants and their
co-conspirators mislead customers to believe that the
prescription pet foods at issue have been tested and
approved by the FDA, have been subject to
government inspection and oversight, and have
medicinal and drug properties, for which consumers are
willing to pay a premium. (Petition, ¶ 1). Plaintiffs also
state: “Neither federal nor Missouri law requires that
Prescription Pet Food be sold with a prescription from
a veterinarian. None of the Prescription Pet Food
purchased by the Plaintiffs contains a drug, and none
has been submitted to the FDA for its review, analysis,
or approval. The same is true for all Prescription Pet
Food.” (Id. at ¶ 34). Plaintiffs then allege that by
imposing the prescription requirement on prescription

15a
pet food, Defendants have misrepresented that it is a
product that is a drug or medicine that has been
evaluated by the FDA as a drug that is legally required
to be sold by prescription. (Id. at ¶ 35). Contrary to
Defendants’ assertions, these allegations do not require
an interpretation of the FDA’s regulations. Rather, the
Plaintiffs’ theory—that these representations deceive
consumers into believing the products comply with
FDA regulations, amounts to an unlawful act in
violation of the MMPA--requires only interpretations of
the MMPA and not the FDCA or CPG.
Based upon Plaintiffs’ theory of their claims, no
analysis of the FDCA or the CPG is necessary.
Plaintiffs allege that Defendants imposed a prescription
requirement for the prescription drug food. (Id. at ¶ 1).
Plaintiffs further allege that Defendants did not submit
the foods at issue to the FDA for analysis or approval.
(Id. at ¶ 40). Plaintiffs allege that the failure to submit
any foods for analysis or approval is a violation of the
FDCA and the CPG when those products are sold as
prescription pet foods. (Id. at ¶ 58). Plaintiffs’ ability to
prevail on this theory does not depend on an
interpretation of federal law, but rather whether these
actions resulted in unlawful practice that violated the
MMPA. See Schuchmann v. Air Servs. Heating & Air
Conditioning, Inc., 199 S.W.3d 228, 233 (Mo. Ct. App.
2006) (explaining that “the MMPA supplements the
definition of common law fraud”) (emphasis added).
Therefore, Plaintiffs’ MMPA claims do not raise a
substantial issue of federal law.

16a
Regarding Plaintiffs’ antitrust claims, Mo. Rev.
Stat. § 416.031.2 provides: “It is unlawful to monopolize,
attempt to monopolize, or conspire to monopolize trade
or commerce in this state.” Plaintiffs do not ask a court
to determine if the Defendants violated the FDCA or
the CPG but rather ask a court to determine if the
Defendants did, in fact, agree to impose a prescription
requirement on their products despite not submitting
them to the FDA for analysis or approval. The
necessary inquiry requires Plaintiffs to prove that,
through these actions, Defendants engaged in
monopolistic behavior, attempted to monopolize, or
conspired to monopolize the prescription pet food
market. As such, Plaintiffs’ antitrust claims do not
depend on an interpretation of federal law for their
resolution.
Lastly, a state court would not need to engage in
an analysis of federal law to resolve Plaintiffs’ unjust
enrichment claims. “To establish the elements of an
unjust enrichment claim, the plaintiff must prove that
(1) he conferred a benefit on the defendant; (2) the
defendant appreciated the benefit; and (3) the
defendant accepted and retained the benefit under
inequitable and/or unjust circumstances.” Howard v.
Turnbull, 316 S.W.3d 431, 436 (Mo. Ct. App. 2010). As
discussed above, the act of charging a premium for
prescription pet food in the absence of FDA analysis
and approval is what a court or fact-finder would
evaluate to determine if Defendants retained a benefit
under inequitable or unjust circumstances, not whether
these actions violated the FDCA or the CPG. As such,

17a
Plaintiffs’ ability to succeed on their unjust-enrichment
claims do not depend on the resolution of federal law.
In short, references to federal law in the
Complaint do not, by their presence alone, mean that an
interpretation of federal law is necessary to resolve the
case. Rather, the actions alleged by Plaintiffs can be
evaluated with reference only to state law. Therefore,
the Court finds that Plaintiffs’ state-law claims do not
necessarily implicate significant federal issues. See
Great Lakes Gas Transmission Ltd. P’ship v. Essar
Steel Minn. LLC, 843 F.3d 325, 329 (8th Cir. 2016)
(“Federal question jurisdiction exists if ... the plaintiff’s
right to relief necessarily depends on resolution of a
substantial question of federal law.”). Accordingly, the
Court lacks federal-question jurisdiction in this case.
B.

28 U.S.C. § 1332 Diversity Jurisdiction

CAFA amended the diversity statute to extend
jurisdiction of federal courts from class actions between
“citizens of different States” to those which “any
member of a class of plaintiffs is a citizen of a State
different from any defendant.” 28 U.S.C. §§ 1332(a)(1),
(d)(2)(A). CAFA is codified, in part, at 28 U.S.C. § 1332,
the statutory provision that grants federal courts
original jurisdiction on the basis of diversity of
citizenship. The traditional grant of diversity
jurisdiction provides that all plaintiffs must be citizens
of States different from all defendants. 28 U.S.C. §
1332(a)(1). Under CAFA, “federal courts have
jurisdiction over class actions in which the amount in

18a
controversy exceeds $5,000,000 in the aggregate; there
is minimal (as opposed to complete) diversity among
the parties, i.e., any class member and any defendant
are citizens of different states; and there are at least
100 members in the class.” Westerfield v. Indep.
Processing, LLC, 621 F.3d 819, 822 (8th Cir. 2010)
(citing 28 U.S.C. § 1332(d)). CAFA leaves unaltered the
general rule that the removing defendant bears the
burden of establishing federal court jurisdiction. Id.; 28
U.S.C. 1441(a).
Defendants assert that minimal diversity is
satisfied in this case as at least one member of the
putative class is a citizen of only Missouri3 and that
Royal Canin is a citizen of both Delaware, its state of
incorporation, and Missouri, its principal place of
business. (Doc. # 29, p. 9).4 Defendants argue that Royal
Canin is a citizen of either Delaware or Missouri for the
purposes of CAFA’s minimal-diversity requirement.
(Id.). This argument requires the Court to determine if
CAFA grants jurisdiction over a class action brought

3

Both named Plaintiffs are citizens of Missouri. (Petition, ¶¶ 9-10).
Additionally, the proposed classes are all defined to contain
“Missouri citizens.” (Id. at ¶¶ 90-92). Therefore, all Plaintiffs are,
for the purposes of determining jurisdiction, citizens of Missouri.
4
Purina is a Missouri corporation with its principal place of
business in St. Louis, Missouri. (Doc. # 1-1, ¶ 12). As such, Purina is
a citizen of Missouri by virtue of both its State of incorporation and
its State where its principal place of business lies. 28 U.S.C.
1332(a)(1). Both the named Plaintiffs and the proposed class are
citizens of Missouri. (Doc. # 1-1, ¶¶ 9-10, 90-92). As such, Purina is
not minimally diverse from the Plaintiffs and cannot support a
finding of diversity jurisdiction pursuant to CAFA.

19a
by a group of Missouri citizens against a corporation
that is a citizen of both Missouri and Delaware.
The statutory provision defining the citizenship
of a corporation, found in the same statute as CAFA, 28
U.S.C. § 1332, provides that a corporation is a citizen of
the State in which it is incorporated and the State of its
principal place of business. 28 U.S.C. § 1332(c)(1).
Corporations have always been deemed to be citizens of
both States for diversity purpose. The statute’s “use of
the conjunctive gives dual, not alternative, citizenship
to a corporation whose principal place of business is in a
State different from the State where it is incorporated.”
Johnson v. Advance Am., 549 F.3d 932, 935 (4th Cir.
2008). Therefore, for the purposes of diversity
jurisdiction, Royal Canin is a citizen of both Delaware,
its State of incorporation, and Missouri, the State of its
principal place of business.
While neither the Supreme Court, nor the
Eighth Circuit, has addressed the issue of dual
citizenship as it applies to CAFA, every court of appeal
that has considered the issue has reached the same
conclusion. See Roberts v. Mars Petcare US, Inc., 874
F.3d 953, 956-57 (6th Cir. 2017); Life of the S. Ins. Co. v.
Carzell, 851 F.3d 1341, 1344-46 (11th Cir. 2017);
Johnson, 549 F.3d at 935-36; see also In re Hannaford
Bros. Co. Customer Data Sec. Breach Litig., 564 F.3d
75, 78 n.2 (1st Cir. 2009) (expressing skepticism in the
argument that dual citizenship of a corporation can
satisfy minimal diversity when citizenship of one State
is shared with another party). Additionally, this Court
has previously rejected the argument that dual

20a
citizenship entitles a corporate defendant to rely on its
Delaware citizenship to establish minimal diversity
under CAFA. See Sundy v. Renewable Envtl. Sols.,
LLC, No. 07-5069-CV-SW-ODS, 2007 WL 2994348, at
*3 n.4 (W.D. Mo. Oct. 10, 2007) (“The court does not
agree with Defendant’s suggestion that minimal
diversity exists unless a member of the class is a citizen
of both Missouri and Delaware.”) (emphasis in original).
These considerations support the conclusion that Royal
Canin is not minimally diverse from Plaintiffs.
Defendants also assert that Mars Petcare, a
citizen of Delaware and Tennessee–a party Defendants
assert is a required party-defendant under Rule 19(a)–
is a basis to establish minimal diversity. (Doc. # 29, pp.
17-18). “But even after CAFA, plaintiffs remain the
masters of their claims and can choose whom they want
to sue.” Roberts, 874 F.3d at 958 (citing Caterpillar, 482
U.S. 386). First, Rule 19 pertains to joinder, not
subject-matter jurisdiction. See Fed. R. Civ. P. 19; Fed
R. Civ. P. 82. Additionally, for jurisdictional purposes,
the Court’s inquiry is limited to examining the case as
of the time it was filed in state court. Standard Fire
Ins. Co. v. Knowles, 568 U.S. 588, 593 (2013). As such, if
the Court were to evaluate Defendants’ Motion to Join
Mars Petcare and proceed to consider its citizenship to
determine jurisdiction, it would be an impermissible
exercise of federal judicial power in the absence of
jurisdiction. See Roberts, 875 F.3d at 958. Because
Plaintiffs, as the master of their Complaint, did not
elect to sue Mars Petcare, the Court cannot consider its
citizenship, but can only evaluate the citizenship of the
two named Defendants. Therefore, the Court rejects

21a
Defendants argument that Mars Petcare’s citizenship
can be used to establish minimal diversity as required
by CAFA.
Defendants have not met their burden of
establishing this Court’s jurisdiction under CAFA.
Defendants, both as citizens of Missouri, are not
minimally diverse from Plaintiffs, also citizens of
Missouri. Royal Canin cannot rely on its dual
citizenship to create minimal diversity. Mars Petcare
cannot be considered by the Court when determining if
it has jurisdiction as it was not named as a Defendant
when Plaintiffs filed suit. Because minimal diversity
does not exist, the Court cannot exercise jurisdiction
granted to it by CAFA over this case.
CONCLUSION
Defendants have not met their burden of
establishing this Court’s jurisdiction. The Court does
not have federal-question jurisdiction because
Plaintiffs’ state-law claims do not necessarily implicate
substantial federal issues. The Court does not have
diversity jurisdiction pursuant to CAFA because there
is not minimal diversity between the parties. Therefore,
Plaintiffs’ Motion to Remand is GRANTED.
Accordingly, it is

ORDERED that this case be remanded to the Circuit
Court of Jackson County Missouri.

22a
IT IS SO ORDERED.
s/ Gary A. Fenner
GARY A. FENNER, JUDGE
UNITED STATES DISTRICT COURT

DATED: June 13, 2019

23a
April 16, 2020
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
No: 19-2645
Anastasia Wullschleger and Geraldine Brewer
Appellees
v.
Royal Canin U.S.A., Inc. and Nestle Purina Petcare
Company Appellants
_____________________________
Appeal from U.S. District Court for the Western
District of Missouri - Kansas City
(4:19-cv-00235-GAF)
_____________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied. Judge
Grasz did not participate in the consideration or
decision of this matter.
Order Entered at the Direction of the Court: Clerk,
U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

24a
IN THE CIRCUIT COURT OF JACKSON
COUNTY, MISSOURI
AT KANSAS CITY
ANASTASIA
WULLSCHLEGER,
704 W. Gregory
Kansas City, MO 64114

Case No.
___________
Div.
_______________

and
GERALDINE BREWER,
4615 Whisper Lake Dr., Apt.
5
Florissant, MO 63033
On behalf of
themselves and all
similarly situated,

others

Plaintiffs,
vs.
ROYAL
CANIN
U.S.A.,
INC.,
Serve at:
STL Agent Services, Inc.
100 South Fourth Street,
Suite 1000
St. Louis, MO 63102

JURY TRIAL
DEMANDED

25a
and
NESTLE
PURINA
PETCARE COMPANY,
Serve at:
C.T. Corporation System
120 South Central Avenue
Clayton, MO 63105
Defendants.

PETITION
COME NOW plaintiffs Anastasia Wullschleger
and Geraldine Brewer, individually and on behalf of all
other Missouri citizens similarly situated, and for their
causes of action against Defendants, Royal Canin
U.S.A., Inc. and Nestle Purina Petcare Company,
demanding trial by jury of all issues so triable, state
and allege as follows:
I.

GENERAL OVERVIEW

1.
As
further
detailed
hereinafter,
Defendants Royal Canin U.S.A., Inc. (“Royal Canin”)
and Nestle Purina Petcare Company (“Purina”), in
concert, combination, and conspiracy with other
manufacturers of dog and cat food, including Mars
Petcare US, Inc. (“Mars”) and Hill’s Pet Nutrition, Inc.
(“Hill’s”)
(collectively
“the
manufacturing
conspirators”), have created and enforced upon
retailers and consumers the mandatory use of a

26a
prescription, issued by a veterinarian, as a condition
precedent to the purchase of certain dog and cat food
(“Prescription
Pet
Food”).
This
self-created
requirement for a veterinarian-issued prescription as a
condition precedent to purchase Prescription Pet Food
misleads reasonable consumers, including Plaintiffs, to
believe that such food has been tested and approved by
the United States Food & Drug Administration
(“FDA”), has been subject to government inspection
and oversight, and has medicinal and drug properties,
for which consumers are willing to pay a premium. As
further detailed herein, none of this is true.
2.
No federal, state, or local law requires a
prescription for the sale of Prescription Pet Food.
Prescription Pet Food has not been reviewed, tested, or
approved by the FDA. Prescription Pet Food contains
no drug or other ingredient that requires FDA
approval or a prescription. Yet, Royal Canin, Purina,
and their co-conspirators make disease treatment
claims in their marketing and packaging for
Prescription Pet Food, which require product review
and approval by the FDA under the United States
Food, Drug, and Cosmetic Act (“FD&C Act”). Royal
Canin, Purina, and their co-conspirators have not
sought or obtained such FDA review and approval. The
use by Royal Can in, Purina, and their co-conspirators
of the prescription or Rx designation is thus false,
misleading, and contrary to law.
3.
Defendants Royal Canin and Purina,
together with Mars and Hill’s, have further combined
and conspired with pet food retailers and veterinary
clinics, including PetSmart, Inc. (“PetSmart”); Medical
Management International, Inc. d/b/a Banfield Pet
Hospital (“Banfield”); BluePearl Vet, LLC (“Blue
Pearl”); and VCA Inc. (“VCA”) (collectively “the retail

27a
conspirators”), to communicate this false and
misleading message to consumers in a wide spread,
sophisticated, and coordinated scheme, premised on the
requirement for a prescription written by a
veterinarian for purchase of Prescription Pet Food.
This requirement for a prescription is communicated to
consumers in a variety of ways, including messages on
packaging, in-store displays, websites, and oral and
written instructions to and from veterinarians. The
false and misleading nature of the communications is
exactly the same for each Prescription Pet Food for
which a prescription is required by the manufacturing
conspirators and for which a prescription is not actually
required by law.
4.
Royal Canin, Purina, and the other
manufacturing conspirators make other, nonprescription dog and cat food with similar ingredients
and claims as those made for Prescription Pet Food, but
sell their Prescription Pet Food at substantially higher
prices as a result of the false prescription requirement.
Reasonable consumers, including plaintiffs, would not
pay the significantly higher prices charged for
Prescription Pet Food if it were not for the false and
misleading message that the coordinated prescription
scheme communicates.
5.
For example, Royal Canin produces a
Prescription Pet Food product called “Royal Canin
Veterinary Diet Gastrointestinal Puppy dry” dog food
that sells for $4.60 per pound, and another substantially
similar non-prescription product called “Royal Canin
Medium Puppy dry” dog food that sells for $2.09 per
pound. The two products make essentially the same
health claims and have an 89 percent overlap in
ingredients. The non-overlapping ingredients are not

28a
drugs and are not sufficient to justify one product’s
being sold by prescription for a significantly higher
price. Given the overlap in ingredients, and the absence
of any drug or other ingredient required to be sold by
prescription in the Prescription Pet Food product, the
only meaningful distinction between the two products
that is apparent to Plaintiffs and those similarly
situated is the prescription requirement. The price
differential is therefore based largely, if not entirety, on
the prescription requirement imposed by Royal Canin,
Purina, and the other companies in the combination.
6.
Prescription Pet Food contains no drug or
other ingredient not also common in non-prescription
pet food. Royal Canin, Purina, and their co-conspirators
impose and enforce the prescription requirement to
prey on the known propensities of consumers to love
their pets and trust their vets.
7.
By participating in this deceptive scheme
and combination, Royal Canin and Purina have violated
the Missouri Antitrust Law, Mo. Rev. Stat.,§§ 416.011
et seq., the Missouri Merchandising Practices Act, Mo.
Rev. Stat.,§§ 407.010 et seq., and Missouri taw of unjust
enrichment, all as more fully alleged hereafter.
8.
Retail consumers, including Plaintiffs,
have overpaid and made purchases they otherwise
would not have made in the absence of the abuse and
manipulation of the prescription requirement by
defendants and their co-conspirators. Plaintiffs bring
this class action for violation of the Missouri Antitrust
Law, Mo. Rev. Stat.,§§ 416.011 et seq., the Missouri
Merchandising Practices Act, Mo. Rev. Stat., §§ 407.010
et seq., and Missouri law of unjust enrichment, on behalf
of themselves and all those similarly situated Missouri
citizens who directly or indirectly, for personal, family,
or household purposes, have purchased Prescription

29a
Pet Food in Missouri manufactured and sold by Royal
Can in, Purina, or any other ·member of the
combination and conspiracy described herein, and seek
redress from Royal Canin and Purina in the form of
damages, trebled as required by law, restitution,
injunctive relief, attorney fees, and all other relief this
Court deems just and proper.
II.

PARTIES

9.
Plaintiff Anastasia Wullschleger is a
resident of Jackson County in the State of Missouri and
the owner of a dog named Clinton. Her veterinarian at
Banfield prescribed Royal Canin Prescription Pet Food
for treatment of her dog. She purchased the Royal
Canin Prescription Pet Food at PetSmart in Jackson
County in the State of Missouri.
10.
Plaintiff Geraldine Brewer is a resident of
St. Louis County in the State of Missouri and the owner
of a cat named Sassie. Her veterinarians first at
O’Fallon Veterinary Medical Center in O’Fallon,
Missouri, and then at Florissant Animal Hospital in
Florissant, Missouri, prescribed Purina Prescription
Pet Food for treatment of her cat. She purchased the
Purina Prescription Pet Food at these locations and
also at PetSmart in Florissant.
11.
Defendant Royal Canin is a Delaware
corporation with a principal place of business at 500
Fountain Lakes Blvd., Suite 100, Saint Charles,
Missouri 63301. It is in the business of manufacturing,
producing, marketing, advertising, distributing, and
selling dog and cat food under various labels.
12.
Defendant
Purina
is
a
Missouri
corporation with a principal place of business in St.

30a
Louis, Missouri. Purina is in the business of
manufacturing, producing, marketing, advertising,
distributing, and selling dog and cat food under various
brands or labels, including, but not limited to,
Prescription Pet Food sold as “Purina Pro Plan
Veterinary Diets.” On the packaging of its Prescription
Pet Food, Purina prominently displays the prescription
sign “Rx.” Purina is a member of the Nestle Group of
companies under the ownership of Nestle S.A. In 2015,
Purina was the second largest seller of Prescription Pet
Food in the United States and the second largest seller
of pet food in the world, with more than $11 billion in
worldwide sales.
III.

NON-PARTY CO-CONSPIRATORS

13.
The firms identified in this section of the
Petition are non-party co-conspirators with Royal
Canin and Purina in the conduct described in this
Petition. Plaintiffs have not named these coconspirators as defendants and seek no relief from them
in this action. This is not intended to be an exhaustive
list of co-conspirators.
14.
Mars is a Delaware corporation with a
principal place of business in Franklin, Tennessee. Mars
is in the business of manufacturing, producing,
marketing, advertising, distributing, and/or selling dog
and cat food under various brands or labels. Until
January 1, 2017, at which time Mars ceased selling lams
Prescription Pet Food, Mars manufactured, produced,
marketed, advertised, distributed, and sold lams
Prescription Pet Food. Royal Canin is a subsidiary or
affiliate of Mars, and Mars’ website indicates Royal
Canin and lams to be two of its five billion-dollar brands
(another is Banfield Pet Hospital). Some combination of

31a
Royal Canin and Mars manufactures, produces,
markets, advertises, distributes, and sells Prescription
Pet Food sold as Royal Canin “Veterinary Diet.”
Hereinafter, “Mars/Royal Canin” describes Mars and
Royal Canin collectively. In 2015, Mars was the largest
seller of Prescription Pet Food in the United States and
the largest seller of pet food in the world, with more
than $17 billion in worldwide sales.
15.
PetSmart is a Delaware corporation with
a principal place of business in Phoenix, Arizona. It is a
national pet superstore chain founded in 1986 and the
largest pet goods retailer in the United States and
North America. PetSmart sells both non-prescription
pet food and Prescription Pet Food. Approximately 900
of PetSmart’s approximately 1,145 nationwide stores
include an onsite “Banfield Pet Hospital,” which is
owned by Mars. There are at least 31 PetSmarts in
Missouri, and 18 of these 31 PetSmarts include an
onsite Banfield Pet Hospital. Through these locations,
PetSmart sells Prescription Pet Food through a process
by which Banfield Pet Hospital acts as the gatekeeper.
As a precondition to purchasing Prescription Pet Food
at PetSmart, all consumers must first obtain a
“MedCard” showing the “Rx,” “Rx Date,” and “Rx #”
from the onsite Banfield Pet Hospital, even if they
present with a prescription from a third-party
veterinarian. Thus Mars, through Banfield Pet
Hospital, controls PetSmart’s sale of Prescription Pet
Food. PetSmart’s websites will also not allow a
customer to purchase Prescription Pet Food without a
prescription from a veterinarian.
16.
Since at least May 31, 2017, PetSmart has
also owned the online pet-retailer Chewy.com. On July
26, 2017, PetSmart moved all of the content from its
pet360.com website to Chewy.com, and redirected a

32a
number of its websites to Chewy.com. Since at least
2014, PetSmart-controlled websites have accounted for
more than 40 percent of all pet-related website traffic.
With PetSmart’s acquisition of Chewy.com, that share
has greatly increased. Through its websites, PetSmart
sells Prescription Pet Food only to customers who
present proof of a prescription from a veterinarian. In
its brick and mortar stores, PetSmart displays
Prescription Pet Food in a special section separate and
distinct from the areas in which it sells non-prescription
pet food and prominently displays signs telling
customers that “Prescription Diets Require a MedCard
for Purchase.” PetSmart, in its stores and websites,
sells non-prescription foods manufactured by many
manufacturers. The only Prescription Pet Food sold by
PetSmart in retail locations is that made by Mars/Royal
Canin, Purina, and Hill’s. Online, prior to 2018,
PetSmart sold only Mars/Royal Canin, Purina, and
Hill’s Prescription Pet Food. In 2018, however, as a
result of litigation, PetSmart and Mars/Royal Canin,
Purina, and Hill’s permitted two smaller competitors
for the first time to sell their Prescription Pet Food
through Chewy.com.
17.
Banfield is a Delaware corporation with a
principal place of business at 8000 NE Tillamook,
Portland; Oregon 97213. It is a member of the Mars
corporate family of companies. It is the largest
veterinary chain in the United States, operating
veterinary clinics at approximately 900 PetSmart
locations, and at dozens of stand-alone locations, and
employing approximately 3,200 veterinarians. There
are some 44 veterinarians employed by Banfield in
Missouri, some 38 of which are in Banfield Pet
Hospitals in Missouri PetSmarts. Banfield prescribes
and sells Prescription Pet Food manufactured by

33a
Mars/Royal Canin, Purina, and Hill’s, and no other
Prescription Pet Food. Banfield has a contractual
relationship with PetSmart to put veterinary hospitals
in PetSmart stores throughout the United States. From
1994 through at least the first half of 2015, PetSmart
owned approximately 21 percent of Banfield, or a
holding company that owned Banfield, and Mars owned
the remaining approximately 79 percent. Sometime
after June of 2015, Mars, or its parent company,
acquired I 00 percent of Banfield. The relationship
among PetSmart, Mars, and Banfield originated in 1994
when both PetSmart and Mars invested in Banfield,
and PetSmart and Banfield entered into a strategic
partnership agreement.
18.
Blue Pearl is a Florida corporation with a
principal place of business at 3000 Busch Lake
Boulevard, Tampa, Florida 33614. 1t is a member of the
Mars corporate family of companies. 1t is the largest
chain of animal specialty and emergency care clinics in
the United States, with approximately 50 locations and
600 veterinarians. There are at least three (3) Blue
Pearl locations in Missouri, employing some 21
veterinarians. Blue Pearl prescribes and sells
Prescription Pet Food of Mars/Royal Canin, Purina,
and Hill’s, and no other Prescription Pet Food. Mars, or
its parent company, owns approximately 90 percent of
Blue Pearl, which it acquired in 2015.
19.
VCA is a Delaware corporation with its
principal place of business at 12401 West Olympic
Boulevard, Los Angeles, California 90064. It is a
member of the Mars corporate family of companies.
VCA owns or controls approximately 800 veterinary
locations employing more than 4,700 veterinarians.
There are least four (4) VCA locations in Missouri,

34a
employing some 11 veterinarians. VCA was acquired
by Mars on September 12, 2017. On information and
belief, VCA sells or prescribes Prescription Pet Food
manufactured by Mars/Royal Canin, Purina, and Hill’s
and no other Prescription Pet Food.
20.
Through its ownership of Banfield, Blue
Pearl, and VCA, Mars employs 17 percent of the
companion animal veterinarians in the United States
through more than 1,700 locations employing
approximately 8,500 veterinarians.
21.
Mars/Royal Canin, Purina, and Hill’s
collectively have a market share of at least 95 percent
in the United States market for Prescription Pet Food.
These entities likewise collectively have a market share
of the Prescription Pet Food market in Missouri of a
comparable percentage.
IV.
A.

CONDUCT GIVING RISE TO
VIOLATIONS OF LAW
The Prescription Pet Food Market

22.
Manufacturing, producing, marketing,
advertising, distributing, and selling Prescription Pet
Food is an approximately $2 billion per year industry in
the United States. Worldwide, the top 40 pet food
companies had total revenue of $46 billion in 2015. Of
that, Mars/Royal Can in, Purina, and Hill’s had
combined revenues of $30 billion, for a 65 percent
worldwide market share. The market for pet food in the
United States was half of that, $23 billion, and
Mars/Royal Canin, Purina, and Hill’s had a combined
market share in excess of 50%.
23.
Hill’s began limited sales in the 1960s of
its “Prescription Diet” through veterinarians and in the

35a
late 1980s first began supplying veterinarians with
prescription pads as part of its marketing effort. The
Prescription Pet Food market in the United States, and
in Missouri, is the creation of Mars/Royal Canin,
Purina, and Hill’s and the retail conspirators named
above, and did not exist to any significant extent until
2005, when Hill’s, Mars/Royal Canin, PetSmart, and
Banfield formed the combination and conspiracy
described hereafter, which Purina subsequently joined,
as did Blue Pearl and VCA upon their acquisition by
Mars, if not before.
24.
Since 2005, Prescription Pet Food has
been a distinct market, or a distinct sub- market of the
dog and cat food market in the United States, and in
Missouri. The market for Prescription Pet Food is
characterized by specialized vendors and sales
channels, distinct and different pricing, and different
customers from the general pet food market.
Specifically, Prescription Pet Food is sold only through
prescribing veterinarians and retailers honoring and
filling such veterinary prescriptions; prices are
substantially higher for Prescription Pet Food than for
non-prescription pet food by reason of the prescription
requirement; and Prescription Pet Food is marketed
and sold only to pet owners who have obtained a
veterinarian’s prescription for Prescription Pet Food.
25.
Mars/Royal Canin manufactures and
markets its Prescription Pet Food in packaging labeled
“Veterinary Diet.” Purina manufactures and markets
its Prescription Pet Food in packaging labeled “Pro
Plan Veterinary Diets,” in which the Rx prescription
symbol appears by extending the bottom of the second
“r” in “veterinary” to intersect with tail of the “y.”
Hill’s manufactures and markets its Prescription Pet
Food in packaging labeled “Prescription Diet.” At

36a
PetSmart’s website, the Prescription Pet Food of
Mars/Royal Canin, Purina, and Hill’s is displayed with
an Rx symbol beside it as follows:
RX INFO REQUIRED
26.
On the Chewy.com website, which
PetSmart has owned since May 31, 2017, the
Prescription Pet Food of Mars/Royal Can in, Purina,
and Hill’s is also displayed with an Rx symbol beside
the words, “This prescription item requires vet
approval.” As explained in the website’s “Questions &
Answers” section, “[a]t checkout you’ll be prompted for
vet information. Once your order is placed, our
Prescription Team will reach out to your vet by phone
or fax. To expedite the process, you may email a photo
of the prescription to us at rx@chewy.com or fax it...
[and] we don’t need to reach out to the veterinarian if
you have the written prescription.”
27.
PetSmart sells Prescription Pet Food only
in its brick and mortar stores housing a Banfield
veterinary clinic, and displays Prescription Pet Food in
a section separate and distinct from where it displays
non-prescription pet food, in a special aisle immediately
adjacent to the Banfield clinic, and with prominent
signs stating “Prescription Diets Require a MedCard
for Purchase. See a Banfield associate for details.” In
order to purchase Prescription Pet Food at a brick and
mortar PetSmart, a consumer must first obtain a
MedCard from Banfield. The card includes entries for
the “Rx” food, the “Rx Date,” and the “Rx #.”
28.
There are significant barriers to entry in
the Prescription Pet Food market, which require
substantial research and development expertise and
investment, the ability to reach veterinary clinics

37a
through a separate sales force and distribution
network, and, for those competing ethically with a
prescription Rx designation, submission to and
compliance with FDA regulatory requirements and
processes. Divisions of larger companies, Mars/Royal
Canin, Purina, and Hill’s dominate the Prescription Pet
Food market by reason of substantial investments in
their Prescription Pet Food products and their close
relationships with veterinarians, veterinary clinics, and
veterinary schools. In addition, these companies have a
significantly larger number of veterinary sales
representatives and greater financial resources than
actual and potential new entrants.
29.
The Prescription Pet Food market
requires successful distribution arrangements with
national pet superstore chains, such as PetSmart,
Chewy, and Petco, which collectively sell roughly 60
percent or more of branded (non-private label) pet food
and a higher share of Prescription Pet Food, as well as
alliances with major veterinary chains, such as
Banfield, Blue Pearl, and VCA. Petco sells Prescription
Pet Food only on its website, and first began selling
Prescription Pet Food around November 2016. Such
alliances with pet superstore and veterinary chains are
necessary because the pet food retail and veterinary
markets are otherwise highly fragmented and
dispersed, consisting of thousands of small stores and
clinics, rendering distribution costs for Prescription Pet
Food prohibitively expensive in the absence of alliances
with pet superstore retailers and major veterinary
chains.
30.
As noted, continuously from 2005 through
the present, Mars/Royal Canin, Purina, and Hill’s
collectively have had a combined share of the

38a
Prescription Pet Food market in excess of95 percent, at
times approaching or equaling 100 percent. For the five
years next preceding the filing of this lawsuit,
Mars/Royal Canin, Purina and Hill’s collectively had a
combined market share of the Missouri Prescription
Pet Food market of at least 95 percent.
31.
Today, there are only three other
companies, small relatively recent entrants, attempting
to compete with Mars/Royal Canin, Purina, and Hill’s in
the Prescription Pet Food market in the United States,
and in Missouri:
(a) Blue Buffalo Company, based in Wilton,
Connecticut, which markets a line of Natural
Veterinary Diet—Rx dog and cat food, in
addition to lines of non-prescription BLUE dog
and cat food;
(b) Diamond Pet Foods, based in Meta, Missouri,
which markets Diamond Rx Renal Formula pet
food, in addition to lines of non-prescription dog
and cat food; and
(c) Darwin’s Natural Pet Products, based in
Tukwila, Washington, which markets Intelligent
Design Prescription Meals, in addition to lines of
non-prescription dog and cat food.
Blue Buffalo and Diamond sell their Prescription Pet
Food through veterinarians only, and cannot obtain
distribution through PetSmart brick and mortar stores
and, until 2018, its web sites, although PetSmart and its
web sites stock and sell their non-prescription pet food.
As noted, only after being sued, PetSmart and
Mars/Royal Can in, Purina, and Hill’s for the first time,
in 2018, permitted Blue Buffalo and Diamond to sell

39a
their Prescription Pet Food through Chewy.com.
Darwin’s sells its Prescription Pet Food pet food
directly from Missouri once a customer obtains a
prescription from a veterinarian. Before 2018, unlike
Mars/Royal Can in, Purina, and Hill’s, none of the three
smaller competitors were able to sell Prescription Pet
Food through PetSmart, its websites, or Banfield.
Plaintiffs are informed and believe that agreements
between and among Mars/Royal Canin, Purina, Hill’s,
PetSmart, and Banfield prohibit and restrict PetSmart
and Banfield from stocking and selling Prescription Pet
Food made by these small and other competitors.
32.
The past, present, and future ownership,
operation, and control of veterinary clinics and
hospitals by PetSmart and Mars have created
significant barriers to entry in the Prescription Pet
Food market in the United States, and in Missouri, for
actual and potential competitors by effectively
foreclosing distribution outlets necessary for sellers of
competing Prescription Pet Food, who cannot
effectively reach customers without distribution
through PetSmart and the veterinary chains owned by
Mars because of the prohibitive expense in selling only
to the thousands of individual and small group
veterinary practices.
33.
As majority shareholder and now sole
owner of Banfield, Mars/Royal Canin has possessed and
exercised the power to determine the manufacturers
whose Prescription Pet Food is prescribed and sold
through Banfield and PetSmart, as well as through
Blue Pearl and VCA. Mars/Royal Canin has exercised
that power to allow only prescribing and sale of
Prescription Pet Food manufactured by Purina, Hill’s,
and itself.

B.

40a
The False, Deceptive, and Misleading
Prescription Requirement

34.
Neither federal nor Missouri law requires
that Prescription Pet Food be sold with a prescription
from a veterinarian. None of the Prescription Pet Food
purchased by the Plaintiffs contains a drug, and none
has been submitted to the FDA for its review, analysis,
or approval. The same is true for all Prescription Pet
Food.
35.
By requiring a prescription from a
veterinarian as a pre-condition to the purchase of their
Prescription Pet Food, Mars/Royal Canin, Purina, and
their co-conspirators misrepresent Prescription Pet
Food to be: (a) a substance medically necessary to
health; (b) a drug, medicine, or other controlled
ingredient; (c) a substance that has been evaluated by
the FDA as a drug; (d) a substance as to which the
manufacturer’s representations regarding intended
uses and effects have been evaluated by the FDA; and
(e) a substance legally required to be sold by
prescription. Prescription Pet Food is none of these.
36.
Most pet owners experience the heartfelt
concern that accompanies trips to the veterinarian, as
well as the willingness to follow doctor’s orders to their
fullest extent. Plaintiffs are reasonable consumers who
expect that pet food that requires a prescription from a
veterinarian as a condition of purchase has been
submitted to and approved by the FDA for the
particular purposes and conditions for which it has been
prescribed and that the product carries with it all of the
testing, analysis, safety assurances, and efficacy that
any product submitted to and approved by the FDA
would have. Accordingly, reasonable consumers,
including Plaintiffs, are willing to pay a premium for

41a
Prescription Pet Food.
37.
To obtain Prescription Pet Food,
customers must either (a) buy it directly from the
veterinarian who prescribes it, or (b) take the
prescription to a business that sells Prescription Pet
Food, such as Banfield, Blue Pearl, VCA, a PetSmart
store with Banfield on-site, or a PetSmart web site. In
this way, Mars/Royal Canin, Purina, and their coconspirators control the sale of Prescription Pet Food
at retail to those with a prescription from a
veterinarian so as to create for the consumer the
experience of buying a drug and give the reasonable
but false and misleading impression of a government
tested and approved product warranting a premium
price.
38.
Plaintiffs, as reasonable retail consumers,
(a) understand the requirement for a prescription to
mean that a governmental authority has sanctioned and
controls the use and distribution of the product and has
provided its required oversight and review; (b)
associate prescription fulfillment with following
doctor’s orders; and (c) experience the prescribing and
purchase of Prescription Pet Food in the exact same
manner as an actual prescription drug for a dog or cat.
39.
Plaintiffs, as reasonable consumers,
humanize their pets. In marketing and selling
Prescription Pet Food, Mars/Royal Canin, Purina, and
their co-conspirators take advantage of and betray
vulnerable pet owners concerned about the health of
the family pet, and prey on the known propensities of
Plaintiffs and others similarly situated to treat their
pets as family.
40.
Prescription Pet Food:

42a
(a) has not been subjected to the FDA process
for evaluating the quality of drug ingredients
and manufacturing processes;
(b) has not been subjected to the FDA process
for evaluating the efficacy of claims and
propriety of representations;
(c) does not contain any ingredient listed as a
drug in the FDA’s “Green Book,” a publication
listing all approved animal drugs;
(d) does not appear as a drug in the Green Book;
(e) does not contain any drug approved by the
FDA; and
(f) does not bear the mandatory legend borne by
those items required by the FDA to be sold by
prescription (i.e., “Caution: Federal law restricts
this drug to use by or on the order of a
veterinarian.”).
41.
Mars/Royal Canin, Purina, and their coconspirators have at all times known that Prescription
Pet Food is not legally required or allowed to be sold by
prescription, that representing expressly or implicitly
that a prescription is legally required is false, and that
all of them know this.
42.
Mars/Royal Canin, Purina, and their coconspirators have at all times also known that there is
no medicine, drug, or other ingredient in Prescription
Pet Food required by law to be submitted to or
approved by the FDA or another governmental entity,
that neither the FDA nor any other governmental
entity has undertaken any review or approval process,
and that neither the FDA nor any other governmental
entity has approved Prescription Pet Food for
treatment of any condition or illness.

43a
43.
Mars/Royal Canin, Purina, and their coconspirators impose the condition precedent of a
prescription from a veterinarian, and such condition
precedent is an integral step in the marketing, sale, and
purchase of Prescription Pet Food.
44.
The intended purpose and effect of the
prescription requirement has been to enable
Mars/Royal Canin, Purina, and their co-conspirators to
market and sell Prescription Pet Food at excessive,
inflated prices above the price of non-prescription pet
food making substantially similar treatment claims. The
supra-competitive price premium for Prescription Pet
Food is not cost-justified and is the intended result of
the false, deceptive, and misleading prescription
requirement imposed by Mars/Royal Canin, Purina, and
their co-conspirators.
C.

The Combination and Conspiracy
I.

Formation

45.
In 1994, PetSmart, Mars, and Banfield
entered into a combination to transfer ownership and
control of Banfield to PetSmart and Mars and execute a
contract for a strategic partnership among themselves
locating Banfield pet hospitals in PetSmart stores.
46.
At that time, Prescription Pet Food was
not a significant factor or a recognized sub-market in
the United States pet food market. Hill’s was the
primary seller of pet food through veterinarians and
was using the term “Prescription Diet.”
47.
By 2004, however, this had changed, with
Hill’s becoming a significant player in the sale of pet

44a
food for which an actual prescription was required,
although no prescription was legally required.
Mars/Royal Canin, as the market leader confronted
with a growing threat from Hill’s, faced the choice of
competing with Hill’s non-prescription pet food, or
colluding with Hill’s in the fraudulent sale of
Prescription Pet Food at unjustified enhanced prices. It
chose the latter course, developing and introducing its
own Veterinary Diet line of Prescription Pet Food.
48.
In March of2005, Mars/Royal Canin,
Hill’s, PetSmart, and Banfield entered into a
combination and conspiracy to sell Prescription Pet
Food, pursuant to which they agreed:
(a) to restrict the retail sale of their Prescription
Pet Food to pet owners who had obtained and
presented a prescription;
(b) to require that retail sellers enforce their
prescription and presentation requirement; and
(c) to restrict retail sellers to those who agreed
to enforce the prescription requirement, all with
the purpose and effect of raising, fixing,
stabilizing, and pegging prices of Prescription
Pet Food.
49.
In furtherance of the combination and
conspiracy, Hill’s entered into a “merchandising
agreement” with PetSmart and Banfield, which Mars
and PetSmart owned, to sell Hill’s Prescription Pet
Food in all PetSmart stores with an on-site Banfield pet
hospital.
50.
At that time, PetSmart and Banfield were
selling Mars/Royal Canin Prescription Pet Food, and
Mars had the power to exclude Prescription Pet Food

45a
competitors from Banfield and PetSmart by reason of
its majority ownership of Banfield. Nonetheless,
contrary to its independent economic interest,
Mars/Royal Canin agreed to allow its Prescription Pet
Food competitor, Hill’s, into Banfield and PetSmart in
furtherance of their combination and conspiracy.
PetSmart and Banfield have sold Hill’s and Mars/Royal
Canin Prescription Pet Food continuously since 2005
through the present day.
51.
Once Hill’s, Mars/Royal Can in, PetSmart,
and Banfield formed their combination and conspiracy
in 2005, Purina faced the same choice Mars/Royal Canin
had faced: compete or collude. Like Mars/Royal Canin,
it chose to collude and joined the combination and
conspiracy.
52.
Similarly, Mars/Royal Canin faced the
same choice: whether to exercise its power to exclude
its Prescription Pet Food competitor, Purina, from
Banfield and PetSmart. Again, contrary to its
independent economic interest, Mars/Royal Canin
allowed Purina to begin selling Prescription Pet Food
through Banfield and PetSmart in approximately 2006
and to join the existing combination and conspiracy in
the misleading and deceptive sale of Prescription Pet
Food with the purpose and effect of raising, fixing,
stabilizing, and pegging Prescription Pet Food prices.
PetSmart and Banfield have sold Purina Prescription
Pet Food continuously since 2005 through the present
day.
53.
Although Mars/Royal Canin, Purina, and
Hill’s have continuously sold Prescription Pet Food
through Banfield and Pet Smart in furtherance of their
combination and conspiracy, Mars/Royal Can in, Purina,
and their co-conspirators have prevented their smaller

46a
Prescription Pet Food competitors from doing so. In
furtherance of their combination and conspiracy,
Mars/Royal Can in, Purina, and their co-conspirators
agreed that Banfield and PetSmart would not stock,
offer, or sell Blue Buffalo Natural Veterinary Diet dog
and cat food, Darwin’s Intelligent Design Prescription
Meals, or Diamond Care Rx Renal Formula, the
prescription dog and cat foods of their other
competitors. Prescription Pet Food of these smaller
competitors was also not available on the PetSmartcontrolled websites until 2018, when Blue Buffalo and
Diamond were allowed to sell their Prescription Pet
Food on Chewy.com. PetSmart, PetSmart.com, and
Chewy.com, have, however, carried the nonprescription dog and cat food of Blue Buffalo Company
and Diamond.
54.
As a result of their combination,
Mars/Royal Canin, Purina, and their co-conspirators
created a separate and distinct market for Prescription
Pet Food, which had not previously existed, which
enabled them to sell Prescription Pet Food at
anticompetitive, enhanced prices, and which they have
dominated.
2.

Perpetuation

55.
In September of 2012, the FDA published
for comments a Draft Compliance Policy Guide (“Draft
CPG”), “LABELING AND MARKETING OF
NUTRITIONAL PRODUCTS INTENDED FOR
USE TO DIAGNOSE, CURE, MITIGATE, TREAT,
OR PREVENT DISEASES IN DOGS AND CATS.”
56.
The Draft CPG expressly stated at the
outset, ‘This draft Compliance Policy Guide, when

47a
finalized, will represent the Food and Drug
Administration’s (FDA’s) current thinking on this topic.
It does not create or confer any rights for or on any
person and does not operate to bind FDA or the
public.”
57.
The Draft CPG was intended for guidance
of FDA staff in deciding whether to institute
enforcement actions against violations of the FD&C
Act and related statutes by manufacturers of dog and
cat food products “identified on their labels or in
labeling as being intended for use to diagnose, cure,
mitigate, treat, or prevent diseases.” Such products
included the Prescription Pet Food of Mars/Royal Can
in, Purina, and Hill’s. For example:
(a) Mars’ Royal Canin Prescription Pet Food
labels stated that they were for issues including
“Renal
Health,”
“Gastrointestinal
and
Dermatological Health,” “Struvite Dissolution,”
“Digestive Health,” “Protect[ing] Healthy Skin
& Coat,” “minimiz[ing] glucose fluctuations,”
“Cardiac Health,” “Calorie Control,” and others.
Further, each Royal Canin Prescription Pet
Food stated on its package that Royal Canin had
the knowledge to “formulate the optimal diet for
your [pet’s] special needs.”
(b) Mars’ lams Prescription Pet Food labels
stated that they were for issues including
“Glucose and Weight Control,” “Management of
Skin & Coat and Gastrointestinal Health,”
“Nutritional Management of Joint and Senior
Health,” “Nutritional Management of Kidney
Health,” “Help[ing] your pet safely reach and
maintain her ideal weight,” and others. Further,
each lams Prescription Pet Food stated on its

48a
package that it was “prescribed and sold by
veterinarians” and “[a]uthorized by prescription
and sold only through veterinarians.”
(c) Purina Prescription Pet Food labels stated
that they were for issues including “promot[ing]
a urinary environment unfavorable to the
development of both struvite and calcium oxiate
cystals,” “significantly reduc[ing] build-up of
tartar,”
“support[ing]
intestinal
health,”
“maintain[ing] lean body mass,” and others.
Further, each Purina Prescription Pet Food
package was branded with an “Rx” symbol and
the Rod of Asclepius (the snake wrapped around
the rod, a universal symbol of medicine) and
stated that “our goal is to help your pet lead an
active, healthy lifestyle.”
(d) Hill’s Prescription Pet Food labels stated
that they were for issues including “weight
management,”
“digestive
care,”
“food
sensitivities,” “urinary care,” “kidney care,”
“dental
care,”
“aging
care,”
“glucose
management,” “heart care,” “joint care,” “liver
care,” “skin sensitivity,” “thyroid care,” “urgent
care,” and others. Further, each Hill’s
Prescription Pet Food package stated it was a
“Prescription Diet,” represented that the
contents were “Clinical Nutrition,” bore an
image of a stethoscope, and explained “How this
product will help your pet.”
58.
The Draft CPG concluded that such
products met the definition of drugs and food under the
FD&C Act. Therefore, if such products, including the
Prescription Pet Food of Mars/Royal Canin, Purina,

49a
and Hill’s, did not have an approved New Animal Drug
Application or meet other FD&C Act requirements,
they were “unsafe,” “adulterated,” “misbranded,”
illegal, and subject to enforcement actions by the FDA.
59.
All of the Prescription Pet Food of
Mars/Royal Canin, Purina, and Hill’s lacked an
approved New Animal Drug Application or met other
FD&C Act requirements, and therefore all of their
Prescription Pet Food was “unsafe,” “adulterated,” and
“misbranded” in violation of the FD&C Act.
60.
The term “prescription” did not appear in
the Draft CPG, which did not recommend, suggest, or
approve of the use of a prescription requirement in the
marketing or sale of offending products, including
Prescription Pet Food. Nor did the term “authorize”
appear in the draft CPG.
61.
At the time of the Draft CPG, both the
pet food industry and the veterinary profession widely
held the view that use of a prescription requirement
was improper and misleading for products not
subjected to FDA review and approval. In a filed
comment on the Draft CPG, the American Feed
Industry Association, representing “more than 550
domestic and international companies and state,
regional and national associations,” recommended “that
pet food products subject to this CPG should be
regulated in a manner similar to human medical foods,
as veterinary medical foods.” According to the FDA,
“The labeling of medical foods may not bear the symbol
‘Rx only’,” because “medical foods are not required by
federal law to be dispensed by prescription,” and
“[t]herefore, the use of the symbol ‘Rx only’ in the
labeling of a medical food would misbrand a medical
food under section 403(a)(1) of the FD&C Act because it
would be a false and misleading statement about that

50a
product.” Another filed comment from the American
Veterinary Medical Association (“AVMA”), known as
“the recognized national voice for the veterinary
profession,” representing 83 percent of all U.S.
veterinarians, recommended that because Prescription
Pet Food had “not been evaluated by FDA for safety,
efficacy, or nutritional adequacy,... all pet food products
with implied or explicit health or drug claims [should]
include a prominent statement on the label that these
claims have not been evaluated by the FDA.”
62.
Despite these FD&C Act violations by
Mars/Royal Canin, Purina, and Hill’s, the Draft CPG
stated that FDA staff had discretion to withhold
enforcement against offending products provided such
products met each of nine requirements. Conditions 1
and 5-7 were: (1) “The product is made available to the
public only through licensed veterinarians or through
retail or internet sales to individuals purchasing the
product under the direction of a veterinarian.”; (5) “The
product does not include indications for a disease claim
(e.g., obesity, renal failure) on the label.”; (6)
“Distribution of labeling and promotional materials
with any disease claims for the product is limited so
that it is provided only to veterinary professionals.”;
and (7) “Electronic resources for the dissemination of
labeling information and promotional materials are
secured so that they are available only to veterinary
professionals.”
63.
Mars/Royal Canin, Purina, and Hill’s were
clearly not in compliance with conditions 5, 6, and 7 of
the Draft CPG, in that their Prescription Pet Food
included indications for disease claims (e.g., obesity,
kidney problems) on the labels (condition 5); their
labeling and distribution of promotional materials with
disease claims were not limited to veterinary

51a
professionals (condition 6), but went to consumers
generally; and their electronic dissemination of labeling
and promotional materials with disease claims was not
secured so as to be available only to veterinary
professionals (condition 7), but was directed to
consumers on the internet.
64.
Specifically:
(a) For its Royal Canin and lams Prescription
Pet Food, Mars made advertising and marketing
representations directly to consumers that its
Prescription Pet Food is a prescription product
intended to address disease. In addition to its
labeling claims, Mars’ Royal Canin web. site
stated, “Our Veterinary-Exclusive diets support
a wide range of health issues such as: Urinary
Health, Skin and Food Allergies, Diabetes,
Digestive Support, Liver Health, Joint Support,
Illness and Surgery Recovery Support, Renal
Health, Weight Management, and Cardiac
Health.”
(b) For its “Pro Plan Veterinary Diets,” Purina
made advertising and marketing representations
directly to consumers that its Prescription Pet
Food was a prescription product intended to
address disease. In addition to labeling claims,
the Purina website extolled the benefits of
Purina’s Prescription Pet Foods and told
consumers to “[a]sk your veterinarian if Purina
Pro Plan Veterinarian Diets cat foods and dog
foods can help manage your pet’s health.” The
web site stated, “Purina Pro Plan Veterinary
Diets dog and cat foods deliver nutrition with a
purpose. Available only from your veterinarian,
they play an important role in nutritionally

52a
managing dogs and cats with certain conditions.
Each formula has been developed with specific
nutrients to support pets with health issues.”
(c) In its “Prescription Diet” line, Hill’s made
advertising and marketing representations
directly to consumers that its Prescription Pet
Food is a prescription product intended to
address disease. In addition to its labeling
claims, above, Hill’s website explained the
benefits of its Prescription Pet Food, and let
consumers search products by pet “conditions”
(such as “weight management,” “digestive care,”
“food sensitivities,” “urinary care,” “kidney
care,” “dental care,” “aging care,” “glucose
management,” “heart care,” “joint care,” “liver
care,” etc.). The web site also stated: “Select dog
or cat and discover the benefits of Hill’s®
Prescription Diet® therapeutic pet foods —
formulated for most of your pet’s life care
needs...No matter what health issues your dog is
facing, our alliance with veterinarians puts us in
a unique position to find a solution. Ask your vet
how the Prescription Diet® dog foods can help
his weight, mobility, kidney, digestive, urinary
and skin and coat health.”
65.
In view of the Draft CPG and their non
compliance with the FD&C Act, Mars/Royal Canin,
Purina, and Hill’s were confronted with the choice of
whether to continue marketing their Prescription Pet
Food in violation of federal and state law, or to
eliminate the prescription requirement and otherwise
comply with law. They decided jointly at that time, in
the Fall of 2012, to continue their combination and

53a
conspiracy marketing Prescription Pet Food exactly as
they had been doing, and they have continued to do so
through the present.
66.
In response to the Draft CPG and the
FDA’s request for comments, Mars/Royal Canin,
Purina, and Hill’s met under and exploited the cover of
their trade association, the Pet Food Institute (“PFI”),
to deal with the threat posed by the Draft CPG to their
Prescription Pet Food business. At the time of the
Draft CPG, Mars/Royal Canin, Purina, and Hill’s were
all represented on the PFI Board of Directors by their
top executives. Hill’s was represented on the PFI
Board of Directors by its President, U.S., Kostas
Kontopanos. On the Board of Directors and the PFI
Executive Committee were Purina’s President,
Americas, Joe Sivewright, and Mars’ General Manager,
Chris Hamilton. Mr. Sivewright was also ViceChairman of PFI’s Board. Royal Canin was
represented by Randy King, Global Head of Safety and
Regulatory of P&G Pet Care. In addition,
representatives of Purina and Mars chaired the PFI’s
two standing committees, Public Affairs (Purina) and
Regulatory Affairs (Mars), which was involved in
responding to the FDA’s request for comments.
67.
Under the auspices of the PFI, from
September to early November, 2012, Mars/Royal
Canin, Purina, and Hill’s met and discussed how their
existing combination and conspiracy to market and sell
Prescription Pet Food could be preserved and continue
without change or interruption.
68.
On November 8, 2012, at the instance of
Mars/Royal Can in, Purina, and Hill’s, the PFI wrote
the FDA in defense of their Prescription Pet Food
marketing practices. The letter stated that although

54a
pet food making therapeutic claims “are not drugs” and
“no drug registration or drug listing should be
required,” such products should nevertheless “only be
available to the public through licensed veterinarians
with whom the purchaser has a valid VeterinaryClient-Patient Relationship.”
69.
As of that time, Mars/Royal Can in,
Purina, and Hill’s jointly agreed that they would
continue their combination and conspiracy to engage in
deceptive marketing and sale of Prescription Pet Food
with the purpose and effect of charging supracompetitive prices, notwithstanding their violations of
the FD&C Act. They further agreed that all would
construe the Draft CPG to require them to use a
prescription requirement, and to contend that their use
of the prescription requirement was a good faith effort
to comply with the Draft CPG, notwithstanding their
clear violations of its conditions. They decided jointly at
that time to continue their combination marketing
Prescription Pet Food exactly as they had been doing
and have continued to do so through the present.
70.
In April, 2016, the FDA published the
CPG as Sec. 690.150 Labeling and Marketing of Dog
and Cat Food Diets Intended to Diagnose, Cure,
Mitigate, Treat, or Prevent Diseases (the “Published
CPG”). The Published CPG was substantially identical
to the Draft CPG with only minor changes, the most
significant of which was expansion of the required
conditions for exercise of enforcement discretion from 9
to 11. In the Published CPG, what had been conditions
5-7 became conditions 3-5, respectively. The Published
CPG contained the same disclaimer that “It does· not
establish any rights for any person and is not binding
on FDA or the public.” Similarly, it found that
therapeutic pet food making disease claims, as did the

55a
Prescription Pet Food of Mars/Royal Canin, Purina,
and Hill’s, was unsafe, adulterated, and misbranded in
the absence of compliance with the FD&C Act. Like the
Draft CPG, the Published CPG did not use the word
“prescription,” the word “authorization,” or any
derivative of “prescription” or “authorization.”
71.
Despite the publication of the CPG,
Mars/Royal Canin, Purina, and their co-conspirators
have complied with neither the FD&C Act nor the
conditions for the exercise of enforcement discretion set
forth in the CPG. They have at all times in the five
years next prior to the filing of this Petition continued
to manufacture, market, and sell Prescription Pet Food
as part and in furtherance of their contract,
combination, and conspiracy to deceive consumers with
the purpose and effect of raising, fixing, stabilizing, and
pegging prices.
72.
Additionally, in the five years next
preceding the filing of this Petition, Mars/Royal Canin,
Purina and Hills’ have failed to comply with certain
manufacturing requirements as follows:
a) The FDA wrote in the CPG that “under the
FD&C Act, dog and cat food products that are
intended to treat or prevent disease and to
provide nutrients in support of the animal’s daily
nutrient needs can be regulated as drugs (section
201(g) of the FD&C Act [21 U.S.C. 321(g)]),
foods (section 201(f) of the FD&C Act [21 U.S.C.
321(f)]), or both.”
b) Mars/Royal Canin, Purina, and each other
non-party co-conspirator represent on the labels
and packaging of the Prescription Pet Food that
their products are intended to treat, prevent,

56a
and/or mitigate diseases. See, e.g., ¶¶ 57, 64.
Further, Mars/Royal Canin and Purina all
manufacture, ship, mail, and/or deliver their
Prescription Pet Food products to, from, or
within the State of Missouri. See, e.g., ¶¶ 11, 12.
c) Missouri defines a “Legend drug” as “[a]ny
drug or biological product... that is restricted to
use or dispensed by practitioner only.” Mo. Rev.
Stat.§ 338.330(2)(a)(c).
d) Prescription Pet Food is dispensed by
practitioners only, through and because of the
Defendant
manufacturer
co-conspirators’
prescription requirement, and thus such
Prescription Pet Food is a “drug” and a “legend
drug” under Missouri law. See Mo. Rev. Stat.
§338.330.
e) All manufacturers of “drugs” must register
and list those drugs with the FDA, regardless of
whether those drugs are approved or index
listed. 21 U.S. C. § 360. Failure to register as a
manufacturer and list such drugs makes the
drugs misbranded under the FD&C Act. 21
U.S.C. § 352(o); See also CPG at 4. The FDA
provides an electronic database of all registered
manufacturers and of all drugs listed under
section
510
on
its
website
at
https://www.accessdata.fda.gov/scripts/cder/drls
/default.cfm
and
https://www.fda.gov/Forlndustry/
DataStandards/StructuredProductLabeling/ucm
191015.htm, respectively.
f) Because these products can be regulated as
drugs and meet the statutory definitions of
drugs, certain statutory and regulatory

57a
requirements apply to the manufacturing of the
Prescription Pet Food at issue herein under
Missouri state law, including, but not limited to,
licensing and/or registration requirements,
facility specifications and product processing
requirements, record keeping requirements, and
facility inspections. See, e.g., Mo. Rev. Stat. §
338.210 et seq., 20 C.S.R. § 2220-5.020.1 These
requirements differ depending on whether or not
the manufacturing occurs in the state or outside
of the state, but in either situation, the
manufacturer must be licensed or registered
with the State of Missouri. Missouri also
provides an electronic database of licensed and
registered entities on its website at
https://renew.pr.mo.gov/pharmacy-licenseesearch.asp.
g) According to the FDA website, neither
Mars/Royal Canin nor Purina is registered with
the FDA as a manufacturer of animal drugs or
has listed any drugs on the Electronic Animal
Drug Product Listing Directory in connection
with any Prescription Pet Food.2
1

These requirements are detailed and further explained by the
Missouri Board of Pharmacy in the “Missouri Drug Distributor
Compliance Guide” dated February 2012 and available on the
Missouri
Board
of
Pharmacy
website
at
https://pr.mo.gov/pharmacists-drug-distributors.asp.
2
One listing does appear on the FDA’s website for “Nestle Purina
Petcare Com any” with a Clinton, Iowa address under the
“Business Operations” listing of “Manufacture”. This listing,
however, does not appear to be in connection with the Prescription
Pet Food manufactured by Purina at issue in this case inasmuch as
the only corresponding drug listing on the Electronic Animal Drug
Product Listing Directory is with regard to “Purina Pro Plan
Focus Hairball Remedy”, which is not a Prescription Pet Food.

58a
h) According to the Missouri Board of Pharmacy
website, neither Mars/Royal Canin nor Purina
has a current license or registration as a
wholesale drug distributor with the Board of
Pharmacy.
i) Based upon the foregoing, neither Mars/Royal
Canin nor Purina has complied with the relevant
licensing or registration requirements of the
Missouri statutes and regulations or with the
registration and listing requirements of the
FD&C Act, and each is therefore in violation of
those statutes and regulations.
73.
The
decision
to
continue
their
Prescription Pet Food combination and conspiracy as
they had been doing in violation of federal and state law
was a decision made collectively by Mars/Royal Canin,
Purina, and their co-conspirators, in that such a
decision was contrary to the independent economic selfinterest of each of them without agreement with the
others, but rational if made collectively to continue
their successful combination. The conduct of
Mars/Royal Canin, Purina, and each other coconspirator in violating the FD&C Act and various
federal and state deceptive trade practice and
consumer protection laws all by itself exposed each to
multiple risks, including (1) potential solicitation of
FDA enforcement action by a competitor or consumer;
(2) suit by another conspirator for deceptive marketing
practices in violation of the Lanham· Act, 15 U.S.C. §
1125(a); (3) advertising to consumers exposing the sham
selling of Prescription Pet Food and consequent loss of
sales and consumer good will; and (4) suit by consumers
on learning of the deception. Any of these risks could
result in public exposure and the irrecoverable loss of

59a
consumer trust and goodwill, inasmuch as the deceptive
use of the prescription requirement depended for its
success on the unquestioning faith of vulnerable pet
owners in the apparently disinterested advice and
recommendations of their veterinarians. 1 f, however,
all conspirators, as the dominant sellers of Prescription
Pet Food, agreed jointly to continue selling
Prescription Pet Food as they had been, these risks
would be substantially mitigated because of their
combined resources and collective market power.
74.
Once the Draft CPG was issued, it is
further implausible that Mars/Royal Canin, Purina, and
Hill’s would have each independently concluded that
the Draft CPG suggested, recommended, or authorized
the use of a prescription requirement in the marketing
and sale of Prescription Pet Food, or that the Draft
CPG suggested, recommended, or authorized their
making disease claims on labeling or promotional
materials provided to consumers, whether in print or on
websites. It is further implausible that each would have
independently decided to engage in a course of conduct
in violation of the Draft CPG and the FD&C Act in
exactly the same manner, as in fact occurred. That all
three manufacturers decided to violate the Draft CPG
and FD&C Act in the same way is explicable only as
the result of a collective decision or agreement.
V.

INJURY TO PLAINTIFFS

75.
Plaintiff Wullschleger began purchasing
Royal Canin Veterinary Diet Hypoallergenic HP Adult
dry Prescription Pet Food for her dog Clinton from
PetSmart in approximately June, 2015, at the
recommendation of a veterinarian at Banfield in her

60a
local PetSmart, and has continued to do so at the
recommendations of other Banfield veterinarians at the
location. She was told then and has continued to be told
by veterinarians at Banfield and sales people at
PetSmart that she cannot buy this Prescription Pet
Food product without a prescription and a completed
MedCard from Banfield.
76.
When Plaintiff Wullschleger was told that
she needed a prescription for the Royal Canin dog food
she understood and believed that the Prescription Pet
Food was intended to treat specific disease and health
problems of her dog; that it contained medicine of some
sort; that there had been some type of regulatory
oversight in its manufacture; and that her purchasing
the Prescription Pet Food was substantially similar to
the purchase of prescription drugs from a pharmacy
such as CVS. She also observed that the Prescription
Pet Food was shelved in a section of the PetSmart store
separate and distinct from the sections containing nonprescription pet food, and that signs in the Prescription
Pet Food section advised that a prescription and
MedCard from Banfield were required to purchase
Prescription Pet Food.
77.
Royal
Canin
Veterinary
Diet
Hypoallergenic HP Adult dog food makes claims on its
packaging including:
•
•
•
•
•

Supports skin and digestive health in dogs with
food sensitivity
Helps maintain skin and coat health
Supports the skin’s natural barrier
Helps maintain digestive health
100% Complete and Balanced Nutrition Canine
Hydrolyzed Protein Adult HP is a highly

•
•
•
•
•

61a
palatable, highly digestible, complete and
balanced hydrolyzed protein diet
The diet is specifically formulated for use as
short-term elimination feeding and as long-term
nutrition for dogs with food sensitivities.
Specific nutrient blend to help regulate intestinal
transit and to help support the digestive flora
Optimal amounts of B vitamins and amino acids
help maintain the skin’s natural barrier effect
Long chain omega omega-3 fatty acids that
promote a healthy skin and coat
Hydrolyzed soy protein, composed of low
molecular-weight peptides, is highly digestible
and supports gastrointestinal and dermatological
health

78.
Royal Canin also manufactures and
markets non-prescription foods that make similar
claims. By way of example, Royal Canin manufactures
and markets non-prescription Royal Canin Maxi
Sensitive Digestion dry dog food, which states on its
packaging that it is for “Sensitive Digestion” and makes
claims on its packaging including:
•

•
•
•

“Helps support digestive health with high
quality
protein
sources
and
maintain
oligosaccharides. This formula helps promote a
balanced intestinal flora and maintain stool
quality.”
“This formula contains nutrients that help
support healthy skin and coat.”
“L.I.P.: protein selected for its very high
digestibility.”
“100%
COMPLETE
AND
BALANCED

•

62a
NUTRITION
MAXI
SENSITIVE
DIGESTION Size
Health Nutrition is
formulated to meet the nutritional levels
established by the AAFCO (Association of
American Feed Control Officials) Dog Food
Nutrient Profiles for maintenance.”
“Helps support large breed dogs’ healthy bones
and joints”

79.
There are 42 total ingredients in Royal
Canin Veterinary Diet HP dog food. Thirty-four of
these ingredients are also in Royal Canin Maxi
Sensitive Digestion dry dog food, which has 51 total
ingredients, for an overlap of more than 66 percent. The
non-overlapping ingredients are not drugs and are not
sufficient to justify one product being sold by
prescription for a significantly higher price.
80.
Despite these similarities, Royal Canin
Veterinary Diet HP dog food currently sells for $3.83
per pound and Royal Canin Maxi Sensitive Digestion
dry dog food for $1.92 per pound at PetSmart.
81.
As a result of the false and fraudulent
prescription requirement and the combination and
conspiracy of Royal Canin, Purina, and their coconspirators, Plaintiff Wullschleger paid more for
Prescription Pet Food than she would have paid in the
absence of the requirement, or would never have
purchased Prescription Pet Food.
82.
On
the
recommendation
of
her
veterinarians, Plaintiff Brewer has purchased Purina
Pro Plan Veterinary Diets UR St/Ox Urinary Formula
Dry Prescription Pet Food for her cat Sassie from
O’Fallon Veterinary Medical Center, Florissant Animal
Hospital, and PetSmart beginning in 2009 and

63a
continuing through the present. She was told then and
has continued to be told by veterinarians and sales
people at PetSmart that she cannot buy this
Prescription Pet Food without a prescription and a
completed MedCard from Banfield. She was told that
Purina Pro Plan Veterinary Diets UR St/Ox Urinary
Formula Dry Prescription Pet Food was a specialized
pet food that could only be purchased with a
prescription.
83.
When Plaintiff Brewer was told that she
needed a prescription for the Purina cat food, she
understood and believed that the Prescription Pet Food
was intended to treat specific disease and health
problems of her cat; that it contained medicine of some
sort; that there had been some type of regulatory
oversight in its manufacture; and that her purchasing
the Prescription Pet Food was substantially similar to
the purchase of prescription drugs from a pharmacy
such as CVS. She also observed that the Prescription
Pet Food was shelved in a section of the PetSmart store
separate and distinct from the sections containing nonprescription pet food, and that signs in the Prescription
Pet Food section advised that a prescription and
MedCard from Banfield were required to purchase
Prescription Pet Food.
84.
Purina Pro Plan Veterinary Diets UR
St/Ox Urinary Formula Dry Prescription Pet Food
makes claims on its packaging, including:
•
•
•
•

Promotes increased urine flow to dilute the urine
Helps dissolve struvite stones
Helps reduce the risk of both struvite and
calcium oxalate stone recurrence
Promotes a urinary environment unfavorable to

64a
the development of struvite and calcium oxalate
crystals
85.
Purina also makes non-prescription
Purina Pro Plan Focus Adult Urinary Tract Health
Formula Dry Cat Food, which makes claims on its
packaging, including:
•
•
•

Helps maintain urinary tract health by reducing
urinary pH and providing low dietary
magnesium
Purina studies show: Diets that include
acidifying ingredients promote a low urine pH
while supporting cats’ health
pH Benefit: This formula effectively promotes a
LOW URJNE pH, which helps maintain a
HEALTHY URINARY TRACT

86.
There are 35 total ingredients in Purina
Pro Plan Veterinary Diets UR St/Ox Urinary Formula
Dry Cat Food. Twenty-eight of these ingredients are
also in Purina Pro Plan Focus Adult Urinary Tract
Health Formula Dry Cat Food, which has 38 total
ingredients, for an overlap of 74 percent. The nonoverlapping ingredients are not drugs and are not
sufficient to justify one product being sold by
prescription for a significantly higher price.
87.
Despite these similarities, Purina Pro
Plan Veterinary Diets UR St/Ox Urinary Formula Dry
Cat Food currently sells for $4.03 per pound and Purina
Pro Plan Focus Adult Urinary Tract Health Formula
Dry Cat Food for $2.31 per pound at PetSmart.
88.
As a result of the false and fraudulent
prescription requirement and the combination and

65a
conspiracy of Royal Can in, Purina, and their coconspirators, Plaintiff Brewer paid more for
Prescription Pet Food than she would have paid in the
absence of the requirement, or would never have
purchased Prescription Pet Food.
89.
Plaintiffs Wullschleger and Brewer, who
are currently feeding their pets Prescription Pet Food,
are reluctant to change their pets’ diet abruptly and
may again purchase Prescription Pet Food if their pets
reacted well to it in the past, or if their veterinarians
prescribe a new Prescription Pet Food. It is therefore
essential to the fairness of the transaction not only for
Plaintiffs, but for all Class Members, that Defendants’
violations of law be enjoined. The veterinarians and
store personnel with whom Plaintiffs and Class
members interface with in purchasing Prescription Pet
Food will generally not be in a position to confirm that
the Prescription Pet Food at issue is not (a) a substance
medically necessary to health; (b) a drug, medicine, or
other controlled ingredient; (c) a substance that has
been evaluated by FDA as a drug; (d) a substance as to
which the manufacturer’s representations regarding
intended uses and effects have been evaluated by the
FDA; or (e) a substance legally required to be sold by
prescription. The Defendants themselves must
therefore be enjoined to stop their violations at the
source, before they filter down to the consumer level
and vitiate the actual purchase transactions.
VI.

CLASS ACTION ALLEGATIONS

90.
For purposes of their claims under the
Missouri Antitrust Law, Mo. Rev. Stat. §§ 416.011 et
seq., Plaintiffs seek to represent a class consisting of

66a
and defined as all Missouri citizens who purchased
Prescription Pet Food in Missouri for personal, family,
or household purposes directly or indirectly from Royal
Canin, Purina, or any of their co-conspirators during
the five years next prior to the filing of this lawsuit
(“the Missouri Antitrust Class”).
91.
For purposes of her claims under the
Missouri Merchandising Practices Act, Mo. Rev.
Stat.,§§ 407.010 et seq., and Missouri law of unjust
enrichment, Plaintiff Wullschleger seeks to represent a
class consisting of and defined as all Missouri citizens
who purchased in Missouri Royal Canin Prescription
Pet Food for personal, family, or household purposes
during the five years next prior to the filing of this
lawsuit (“the Missouri Royal Canin Class”).
92.
For purposes of her claims under the
Missouri Merchandising Practices Act, Mo. Rev. Stat.,
§§ 407.010 et seq., and Missouri law of unjust
enrichment, Plaintiff Brewer seeks to represent a class
consisting of and defined as all Missouri citizens who
purchased in Missouri Purina Prescription Pet Food for
personal, family, or household purposes during the five
years next prior to the filing of this lawsuit (“the
Missouri Purina Class”).
93.
Plaintiffs’ claims are typical of the
respective classes they seek to represent in that all
class members in each class are Missouri citizens who
purchased Prescription Pet Food in Missouri from
Defendants and their co-conspirators because it was
prescribed for their pets by a veterinarian pursuant to
the prescription requirement imposed by Defendants
and their co-conspirators, and, as reasonable
consumers, all class members utilized the prescription
to purchase that pet food based upon the
misrepresentations communicated by the prescription,

67a
as alleged hereinabove. Regardless of any differences in
the products purchased, all class members purchased
Prescription Pet Food in reliance on and because of the
same combination and conspiracy, misrepresentation,
and unfair and deceptive practice imposed by
Defendants and their co-conspirators—the false
prescription requirement—and paid an unjustified price
premium, in the absence of which they would not have
purchased the Prescription Pet Food, or would have
paid a lower price.
94.
Members of each of the Classes are so
numerous that joinder of all members is impracticable.
While the exact number of Class Members for each
Class is currently unknown, and can only be ascertained
through appropriate discovery, the members of the
Classes are likely to number at least in the thousands,
and the disposition of the Class Members’ claims in a
single action will provide substantial benefits to all
parties and to the Court. Class Members are readily
identifiable from information and records in the
possession, custody, or control of Defendants, retailers
of Prescription Pet Food, veterinarians, and the Class
Members.
95.
Common questions of law and fact exist as
to all members of the Classes, and predominate over
any questions solely affecting individual members of
each Class. Questions of law and fact common to the
Classes include, but are not limited to, the following:
a.
Whether Defendants and their coconspirators
have
imposed
a
“prescription”
requirement on Prescription Pet Food they
manufacture, market, and sell, notwithstanding that
Prescription Pet Food is not a drug and has not been
subjected to FDA review or clearance as a drug;

68a
b.
Whether the prescription requirement
and Defendants’ related representations and omissions
materially misrepresent that Prescription Pet Food
contains some substance medically necessary to health;
c.
Whether the prescription requirement
and Defendants’ related representations and omissions
materially misrepresent that Prescription Pet Food
contains some sort of drug, medicine, or other
controlled ingredient;
d.
Whether the prescription requirement
and Defendants’ related representations and omissions
materially misrepresent that the statements regarding
the intended uses and effects of Prescription Pet Food
have been evaluated by the FDA;
e.
Whether the prescription requirement
and Defendants’ related representations and omissions
materially misrepresent that Prescription Pet Food
requires a prescription under federal or state law;
f.
Whether the prescription requirement
and Defendants’ related representations and omissions
materially misrepresent that Prescription Pet Food is
so materially different from non-prescription pet food
that paying a price premium is warranted;
g.
Whether Prescription Pet Food is
misbranded;
h.
Whether Plaintiffs and Class Members
are entitled to a declaratory judgment;
i.
Whether Plaintiffs and Class Members
are entitled to equitable relief, including, but not
limited to, a preliminary or permanent injunction;
j.
Whether Plaintiffs and Class Members
are entitled to restitution or disgorgement and the
amount;
k.
Whether Plaintiffs and Class Members

69a
are entitled to punitive or exemplary damages and the
amount;
l.
Whether Defendants should be required
to make restitution, disgorge profit, reimburse losses,
pay damages, or pay treble damages as a result of the
above-described practices;
m.
Whether Defendants and their coconspirators have combined and conspired to
misrepresent Prescription Pet Food as part and in
furtherance of a combination and conspiracy to fix,
raise, stabilize, or peg prices of Prescription Pet Food;
n.
Whether Defendants and their coconspirators have conspired to monopolize the market
for Prescription Pet Food in the United States and/or
the State of Missouri;
o.
Whether the combination and conspiracy
of Defendants and their co-conspirators to fix, raise,
stabilize, or peg the prices of Prescription Pet Food has
caused injury to the business or property of Plaintiffs
and the Class Members;
p.
The amount of the overcharge and
damage paid as a result of the combination and
conspiracy to fix, raise, stabilize, or peg the prices of
Prescription Pet Food, or the Defendants’ deceptive
trade practices;
q.
Whether Defendants’ actions as described
above violate the Missouri Antitrust Law, Mo. Rev.
Stat., §§ 416.011 et seq.; and
r.
Whether Defendants’ actions as described
above violate the Missouri Merchandising Practices
Act, Mo. Rev. Stat., §§ 407.010 et seq.
96.
The claims of Plaintiffs are typical of the
claims of Class members because Plaintiffs and each

70a
member of the Classes purchased Prescription Pet
Food, and suffered a monetary loss as a result of that
purchase. Further, the factual bases of Defendants’
conduct are common to Plaintiffs and the members of
each Class and represent a common thread of
misconduct resulting in an injury common to all Class
members.
97.
Plaintiffs are adequate representatives of
the respective Classes because their interests do not
conflict with the interests of the Class Members
Plaintiffs seek to represent, Plaintiffs have retained
competent counsel experienced in prosecuting class
actions, and Plaintiffs intend to prosecute this action
vigorously. The interests of Class Members will be
fairly and adequately protected by Plaintiffs and their
counsel.
98.
Class
certification
and
class-wide
litigation and relief are appropriate because a class
action is superior to all other available methods for the
fair and efficient adjudication of this controversy.
Liability, injury, and damages can be proved on a classwide basis. Joinder of all members is impracticable.
Furthermore, the damages suffered by the individual
members of the Classes may be so small that the
expense and burden of individual litigation make it
impossible for most members of the Classes
individually to redress the wrongs done to them.
Absent a class action, Class Members’ damages will go
uncompensated, and Defendants’ misconduct will
continue without remedy. Class treatment of common
questions of law and fact will also be superior to
multiple individual actions or piecemeal litigation in
that class treatment will conserve the resources of the
courts and the litigants, and will promote consistency
and efficiency of adjudication.

71a
99.
Defendants have acted in a uniform
manner with respect to the Plaintiffs and Class
Members of each Class. Class-wide declaratory,
equitable, and injunctive relief is appropriate because
Defendants have acted on grounds that apply generally
to the Classes, and inconsistent adjudications with
respect to Defendants’ liability would establish
incompatible standards and substantially impair or
impede the ability of Class Members to protect their
interests. Class-wide relief assures fair, consistent, and
equitable treatment and protection of all Class
Members, and uniformity and consistency in
Defendants’ discharge of their duties to perform
corrective action regarding Prescription Pet Food.
VII.

JURISDICTION

100. This Court has jurisdiction of this action
pursuant to the Missouri Antitrust Law, Mo. Rev.
Stat.,§ 416.121, and the Missouri Merchandising
Practices Act, Mo. Rev. Stat., § 407.025.
CAUSES OF ACTION
COUNT I
VIOLATION OF MISSOURI ANTITRUST LAW§
416.031.1
(Royal Canin, Purina)
101. Plaintiffs, on behalf of themselves and the
Missouri Antitrust Class, hereby re-allege and
incorporate by reference the allegations in the

72a
preceding paragraphs as if set forth in full herein.
102. Continuously during the five years next
prior to the filing of this Petition, Defendants and their
co-conspirators have entered into a contract,
combination, or conspiracy in restraint of trade or
commerce in Missouri to fix, raise, stabilize, and peg
prices for Prescription Pet Food by agreeing,
combining, and conspiring to misrepresent and market
and sell Prescription Pet Food through a knowingly
deceptive, misleading, and self-imposed prescription
requirement having no legal basis or mandate.
103. Defendants’ combination and conspiracy
is per se unlawful under the Missouri Antitrust Law,
Mo. Rev. Stat., § 416.031.1. Alternatively, Defendants’
combination and conspiracy has unreasonably
restrained trade and commerce in the market for
Prescription Pet Food in the state of Missouri in
violation of the Missouri Antitrust Law, Mo. Rev.-Stat.,
§ 416.031.1.
104. Defendants’ combination and conspiracy
has led to anticompetitive effects, including
unjustifiably increased prices for Prescription Pet
Food, and otherwise caused injury to consumers and
competition in the market for Prescription Pet Food in
the state of Missouri, in that Plaintiffs and the Missouri
Antitrust Class have paid more for Prescription Pet
Food than they would have otherwise paid in the
absence of Defendants’ violation, and have thereby
been injured in their business and property.
105. Plaintiffs and the Missouri Antitrust
Class will continue to suffer injury and other damage
unless Defendants are enjoined from continuing to
engage in their combination and conspiracy, and are
thereby entitled to injunctive relief pursuant to the

73a
Missouri Antitrust Law, Mo. Rev. Stat., § 416.071.
106. Plaintiffs and the Missouri Antitrust
Class are entitled to all damages proximately caused by
Defendants’ violation of the Missouri Antitrust Law,
including the unjustified price premium paid by them
for Prescription Pet Food, and are entitled to three-fold
such damages as they show themselves to have
sustained and the jury shall find, together with
injunctive relief, and their cost of suit, including a
reasonable attorney’s fee, pursuant to the Missouri
Antitrust Law, Mo. Rev. Stat.,§ 416.121.
COUNT II
VIOLATION OF MISSOURI ANTITRUST LAW§
416.031.2
(Royal Canin, Purina)
107. Plaintiffs, on behalf of themselves and the
Missouri Antitrust Class, hereby re-allege and
incorporate by reference the allegations in the
preceding paragraphs as if set forth in full herein.
108. Continuously during the five years next
prior to the filing of this Petition, Defendants and their
co-conspirators, with the specific intent to obtain a
monopoly, have entered into a conspiracy to monopolize
the market for Prescription Pet Food in the State of
Missouri, and have committed overt acts in furtherance
thereof, including agreeing, combining, and conspiring
to misrepresent and market and sell Prescription Pet
Food through a knowingly deceptive, misleading, and
self-imposed prescription requirement having no legal
basis or mandate, and by agreeing, combining, and

74a
conspiring to limit and preclude non-conspiring
competing manufacturers of Prescription Pet Food
from access to major channels of distribution, including
their co-conspirator retailers and veterinary clinics.
109. Defendants’ conspiracy to monopolize the
market for Prescription Pet Food in the State of
Missouri is unlawful under the Missouri Antitrust Law,
Mo. Rev. Stat., § 416.031.2.
110. Defendants’ conspiracy to monopolize the
Prescription Pet Food market in the State of Missouri
has led to anticompetitive effects, including
unjustifiably increased prices for Prescription Pet
Food, and otherwise caused injury to consumers and
competition in the market for Prescription Pet Food in
the State of Missouri, in that Plaintiffs and the Missouri
Antitrust Class have paid more for Prescription Pet
Food than they would have otherwise paid in the
absence of Defendants’ violation, and have thereby
been injured in their business and property.
111. Plaintiffs and the Missouri Antitrust
Class will continue to suffer injury and other damage
unless Defendants re enjoined from continuing to
engage in their conspiracy to monopolize, and are
thereby entitled to injunctive relief pursuant to the
Missouri Antitrust Law, Mo. Rev. Stat., § 416.071.
112. Plaintiffs and the Missouri Antitrust
Class are entitled to all damages proximately caused by
Defendants’ violation of the Missouri Antitrust Law,
including the unjustified price premium paid by them
for Prescription Pet Food, and are entitled to three-fold
such damages as they show themselves to have
sustained and the jury shall find, together with
injunctive relief, and their cost of suit, including a
reasonable attorney’s fee, pursuant to the Missouri

75a
Antitrust Law, Mo. Rev. Stat., § 416.121.
COUNT III
VIOLATION OF MISSOURI MERCHANDISING
PRACTICES ACT § 407.020, et seq.
(Royal Canin)
113. Plaintiff Wullschleger, on behalf of herself
and the Missouri Royal Canin Class, hereby re-alleges
and incorporates by reference the allegations in the
preceding paragraphs as if set forth in full herein.
114. Continuously during the five years next
prior to the filing of this Petition, Royal Canin has
engaged in the act, use, and employment of deception,
fraud, false pretense, false promise, misrepresentation,
unfair practice, and the concealment, suppression, or
omission of any material fact in connection with the sale
and advertisement of Royal Canin Prescription Pet
Food in trade or commerce in the state of Missouri by
misrepresenting and marketing and selling Prescription
Pet Food through a knowingly deceptive, misleading,
and self-imposed prescription requirement having no
legal basis or mandate.
115. The conduct of Royal Canin in the act,
use, and employment of deception, fraud, false
pretense, false promise, misrepresentation, unfair
practice, and the concealment, suppression, or omission
of any material fact in connection with the sale and
advertisement of Prescription Pet Food in trade or
commerce in the state of Missouri is unlawful under the
Missouri Merchandising Practices Act, Mo. Rev. Stat.,§
407.020 et seq.

76a
116. The
violation
of
the
Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.020,
by Royal Canin has caused Plaintiff Wullschleger and
the Missouri Royal Canin Class to suffer an
ascertainable loss of money or property, real or
personal, as a result of the use or employment by Royal
Canin of a method, act, or practice declared unlawful by
section 407.020, in that Plaintiff Wullschleger and the
Missouri Royal Canin Class have paid more for
Prescription Pet Food than they would have otherwise
paid in the absence of Defendant’s violation, and have
thereby been injured in their persons and property.
117. Plaintiff Wullschleger and the Missouri
Royal Canin Class will continue to suffer injury and
other damage unless Defendant Royal Canin is enjoined
from continuing to engage in violations of Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.020,
and are thereby entitled to injunctive relief pursuant to
the Missouri Merchandising Practices Act, Mo. Rev.
Stat., § 407.025.
118. Plaintiff Wullschleger and the Missouri
Royal Canin/Purina Class are entitled to all actual
damages proximately caused by said Defendant’s
violation of the Missouri Merchandising Practices Act,
Mo. Rev. Stat.,§ 407.020, including the unjustified price
premium paid by them for Prescription Pet Food, and
are entitled to punitive damages, together with
injunctive relief, and attorney’s fees, pursuant to the
Missouri Merchandising Practices Act, Mo. Rev. Stat.,§
407.025.
COUNT IV
VIOLATION OF MISSOURI MERCHANDISING

77a
PRACTICES ACT § 407.020, et seq.
(Purina)
119. Plaintiff Brewer, on behalf of herself and
the Missouri Purina Class, hereby re-alleges and
incorporates by reference the allegations in the
preceding paragraphs as if set forth in full herein.
120. Continuously during the five years next
prior to the filing of this Petition, Purina has engaged in
the act, use, and employment of deception, fraud, false
pretense, false promise, misrepresentation, unfair
practice, and the concealment, suppression, or omission
of any material fact in connection with the sale and
advertisement of Prescription Pet Food in trade or
commerce in the state of Missouri by misrepresenting
and marketing and selling Prescription Pet Food
through a knowingly deceptive, misleading, and selfimposed prescription requirement having no legal basis
or mandate.
121. The conduct of Purina in the act, use, and
employment of deception, fraud, false pretense, false
promise, misrepresentation, unfair practice, and the
concealment, suppression, or omission of any material
fact in connection with the sale and advertisement of
Prescription Pet Food in trade or commerce in the state
of Missouri is unlawful under the Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.020
et seq.
122. The
violation
of
the
Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.020
by Purina has caused Plaintiff Brewer and the Missouri
Purina Class to suffer an ascertainable loss of money or
property, real or personal, as a result of the use or

78a
employment by Purina of a method, act, or practice
declared unlawful by section 407.020, in that Plaintiff
Brewer and the Missouri Purina Class have paid more
for Prescription Pet Food than they would have
otherwise paid in the absence of Purina’s violation, and
have thereby been injured in their persons and
property.
123. Plaintiff Brewer and the Missouri Purina
Class will continue to suffer injury and other damage
unless Purina is enjoined from continuing to engage in
violations of Missouri Merchandising Practices Act, Mo.
Rev. Stat.,§ 407.020, and are thereby entitled to
injunctive
relief
pursuant
to
the
Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.025.
124. Plaintiff Brewer and the Missouri Purina
Class are entitled to all actual damages proximately
caused by Purina’s violation of the Missouri
Merchandising Practices Act, Mo. Rev. Stat., § 407.020,
including the unjustified price premium paid by them
for Prescription Pet Food, and are entitled to punitive
damages, together with injunctive relief, and attorney’s
fees, pursuant to the Missouri Merchandising Practices
Act, Mo. Rev. Stat.,§ 407.025.
COUNT V
UNJUST ENRICHMENT
(Royal Canin)
125. Plaintiff Wullschleger, on behalf of herself
and the Missouri Royal Canin Class, hereby re-alleges
and incorporates by reference the allegations in the
preceding paragraphs as if set forth in full herein.

79a
126. Continuously during the five years next
prior to the filing of this Petition, Royal Canin has been
unjustly enriched in violation of the common law of the
state of Missouri by misrepresenting and marketing
and selling Prescription Pet Food through a knowingly
deceptive, misleading, and self-imposed prescription
requirement having no legal basis or mandate, pursuant
to which Royal Canin induced Plaintiff Wullschleger
and the Missouri Royal Canin Class to confer a benefit
on Royal Canin by paying an unwarranted price
premium for Prescription Pet Food. Royal Canin was
aware of and willfully induced Plaintiff Wullschleger
and the Missouri Royal Canin to confer such benefit,
which Royal Canin has inequitably kept for itself.
127. The violation of the Missouri common law
of unjust enrichment by Royal Canin has caused
Plaintiff Wullschleger and the Missouri Royal Canin
Class to suffer an ascertainable loss of money or
property, real or personal, as a result of the use the
false and fraudulent prescription requirement by Royal
Canin, in that Plaintiff Wullschleger and the Missouri
Royal Canin Class have paid more for Prescription Pet
Food than they would have otherwise paid in the
absence of said Defendant’s violation, and have thereby
been injured in their persons and property.
128. Plaintiff Wullschleger and the Missouri
Royal Canin Class will continue to suffer injury and
other damage unless Royal Canin is enjoined from
continuing to engage in violations of Missouri common
law of unjust enrichment, and are thereby entitled to
injunctive relief.
129. Plaintiff Wullschleger and the Missouri
Royal Canin Class are entitled to all actual damages
proximately caused by Royal Canin’s violation of
Missouri common law of unjust enrichment, including

80a
disgorgement and restitution of the price premium they
have paid for Prescription Pet Food, together with
their costs and such other relief as may be appropriate.
COUNT VI
UNJUST ENRICHMENT
(Purina)
130. Plaintiff Brewer, on behalf of herself and
the Missouri Purina Class, hereby re-alleges and
incorporates by reference the allegations in the
preceding paragraphs as if set forth in full herein.
131. Continuously during the five years next
prior to the filing of this Petition, Purina has been
unjustly enriched in violation of the common law of the
state of Missouri by misrepresenting and marketing
and selling Prescription Pet Food through a knowingly
deceptive, misleading, and self-imposed prescription
requirement having no legal basis or mandate, pursuant
to which it induced Plaintiff Brewer and the Missouri
Purina Class to confer a benefit on it by paying an
unwarranted price premium for Prescription Pet Food.
Purina was aware of and willfully induced Plaintiff
Brewer and the Missouri ·Purina Class to confer such
benefit, which Purina has inequitably kept for itself.
132. The violation of the Missouri common Jaw
of unjust enrichment by Purina has caused Plaintiff
Brewer and the Missouri Purina Class to suffer an
ascertainable loss of money or property, real or
personal, as a result of the use the false and fraudulent
prescription requirement by Purina, in that Plaintiff
Brewer and the Missouri Purina Class have paid more

81a
for Prescription Pet Food than they would have
otherwise paid in the absence of Purina’s violation, and
have thereby been injured in their persons and
property.
133. Plaintiff Brewer and the Missouri Purina
Class will continue to suffer injury and other damage
unless Purina is enjoined from continuing to engage in
violations of Missouri common law of unjust
enrichment, and are thereby entitled to injunctive
relief.
134. Plaintiff Brewer and the Missouri Purina
Class are entitled to all actual damages proximately
caused by Purina’s violation of Missouri common law of
unjust enrichment, including disgorgement and
restitution of the price premium they have paid for
Prescription Pet Food, together with their costs and
such other relief as may be appropriate.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs, individually and on
behalf of all others similarly situated, request the Court
to enter Orders and Judgment against Defendants as
follows:
135. Certifying the Missouri Antitrust Class,
the Missouri Royal Canin, and the Missouri Purina
Class, or such other alternative classes as the Court
shall determine, under Missouri Rule of Civil Procedure
52.08 and Missouri Statutes§ 407.025.3, and naming the
Plaintiffs as representatives of the respective Classes,
and Plaintiffs’ attorneys as Class Counsel to represent
the Class Members;
136. Finding, adjudging, and decreeing that
Defendants have engaged in the violations of law

82a
alleged in this Petition;
137. Enjoining Defendants from engaging in
further such violations of law as the jury shall find and
the Court shall adjudge and decree;
138. Estopping Defendants from denying
Prescription Pet Food is a “drug” and enjoining
Defendants to comply with all federal and Missouri
provisions applicable to the manufacture of such drugs,
or alternatively, enjoining Defendants from making the
disease treatment claims on the packaging of
Prescription Pet Food;
139. Declaring that Defendants are financially
responsible for notifying all Class Members about the
true nature of Prescription Pet Food;
140. Awarding to Plaintiffs and the Classes
such damages as the jury shall find for the violations
alleged;
141. Awarding to Plaintiffs and the Missouri
Antitrust Class three-fold such damages as they show
themselves to have sustained and the jury shall find,
together with injunctive relief, and their cost of suit,
including a reasonable attorney’s fee, pursuant to the
Missouri Antitrust Law§ 416.121;
142. Awarding to Plaintiff Wullschleger and
the Missouri Royal Canin Class, and to Plaintiff Brewer
and the Missouri Purina Class, punitive damages,
together with injunctive relief, and attorney’s fees,
pursuant to the Missouri Merchandising Practices Act,
Mo. Rev. Stat.,§ 407.025.1;
143. Finding, declaring, and decreeing that
Defendants must disgorge, for the benefit of Plaintiffs
and Class Members, all or part of the ill-gotten profits
received from the sale of Prescription Pet Food in
violation of Missouri common law of unjust enrichment;

83a
144. Awarding prejudgment interest on a11
amounts recovered; and
145. Awarding a11 such other and further
relief to which Plaintiff and the Classes are entitled.
JURY TRIAL DEMAND
146. Plaintiffs demand a trial by jury on all
issues so triable.

Respectfully submitted,
BARTIMUS FRICKLETON
ROBERTSON RADER, P.C.
BY: /s/ James·P. Frickleton
JAMES P. FRICKLETON MO #31178
ANNE M. TARVIN MO #65405
11150 OVERBROOK ROAD, SUITE 200
LEA WOOD, KS 66211-2298
(913) 266-2300/ (913) 266-2366 FAX
kellvf@bflawfirm.com
jimf@bflawfirm.com
krobertson@bflawfirm.com
mmarvel@bflawfirm.com
Michael L. McGlamry
GA State Bar #492515
Pro Hac Vice pending
Wade H. Tomlinson
GA State Bar #714605
Pro Hac Vice pending
POPE McGLAMRY, P.C.

84a
3391 Peachtree Road, NE, Suite 300
Atlanta, GA 30326
Ph: 404-523-7706
Fx: 404-524-1648
efile@pmkm.com
Edward J. Coyne, III NC State Bar
#33877
Pro Hac Vice pending
WARD AND SMITH, P.A.
127 Racine Drive
Wilmington, NC 28403
Ph: 910-794-4800
Fx: 910-794-4877
ejcoyne@wardandsmith.com
Michael A. Kelly CA State Bar#71460
Pro Hac Vice pending
Matthew D. Davis
CA State Bar #141986
Pro Hac Vice pending
WALKUP, MELODIA,
KELLY & SCHOENBERGER
650 California Street, 26th Floor
San Francisco, CA 94108
Ph: 415-981-7210
Fx: 415-391-6965
mkelly@walkuplawoffice.com
mdavis@walkuplawoffice.com
Daniel R. Shulman MN State Bar 00651
Pro Hac Vice pending
Julia Dayton Klein MN State Bar 19181
Pro Hac Vice pending

85a
GRAY, PLANT, MOOTY, MOOTY
& BENNETT, P.A.
80 South 8th Street, Suite 500
Minneapolis, MN 55402
Ph: 612-632-3335
Fx: 612-632-4335
daniel.shulman@gpmlaw.com
julia.klein@gpmlaw.com
ATTORNEYS FOR PLAINTIFFS

